<html>
<title> - THE NORTH KOREAN SIX-PARTY TALKS AND IMPLEMENTATION ACTIVITIES</title>
<body><pre>[Senate Hearing 110-665]
[From the U.S. Government Publishing Office]



                                                        S. Hrg. 110-665
 
     THE NORTH KOREAN SIX-PARTY TALKS AND IMPLEMENTATION ACTIVITIES

=======================================================================

                                HEARING

                               before the

                      COMMITTEE ON ARMED SERVICES
                          UNITED STATES SENATE

                       ONE HUNDRED TENTH CONGRESS

                             SECOND SESSION

                               __________

                             JULY 31, 2008

                               __________

         Printed for the use of the Committee on Armed Services


                     U.S. GOVERNMENT PRINTING OFFICE
46-091 PDF                 WASHINGTON DC:  2008
---------------------------------------------------------------------
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092104 Mail: Stop IDCC, Washington, DC 20402�090001


  

                      COMMITTEE ON ARMED SERVICES

                     CARL LEVIN, Michigan, Chairman

EDWARD M. KENNEDY, Massachusetts     JOHN McCAIN, Arizona
ROBERT C. BYRD, West Virginia        JOHN WARNER, Virginia,
JOSEPH I. LIEBERMAN, Connecticut     JAMES M. INHOFE, Oklahoma
JACK REED, Rhode Island              JEFF SESSIONS, Alabama
DANIEL K. AKAKA, Hawaii              SUSAN M. COLLINS, Maine
BILL NELSON, Florida                 SAXBY CHAMBLISS, Georgia
E. BENJAMIN NELSON, Nebraska         LINDSEY O. GRAHAM, South Carolina
EVAN BAYH, Indiana                   ELIZABETH DOLE, North Carolina
HILLARY RODHAM CLINTON, New York     JOHN CORNYN, Texas
MARK L. PRYOR, Arkansas              JOHN THUNE, South Dakota
JIM WEBB, Virginia                   MEL MARTINEZ, Florida
CLAIRE McCASKILL, Missouri           ROGER F. WICKER, Mississippi

                   Richard D. DeBobes, Staff Director

              Michael V. Kostiw, Republican Staff Director

                                  (ii)

  
?



                            C O N T E N T S

                               __________

                    CHRONOLOGICAL LIST OF WITNESSES

     The North Korean Six-Party Talks and Implementation Activities

                             july 31, 2008

                                                                   Page

Hill, Hon. Christopher R., Assistant Secretary, Bureau of East 
  Asian and Pacific Affairs, Department of State.................     5
Tobey, Hon. William H., Deputy Administrator for Defense Nuclear 
  Nonproliferation, National Nuclear Security Administration, 
  Department of Energy...........................................    14
Brownback, Hon. Sam, U.S. Senator from the State of Kansas.......    19

                                 (iii)


     THE NORTH KOREAN SIX-PARTY TALKS AND IMPLEMENTATION ACTIVITIES

                              ----------                              


                        THURSDAY, JULY 31, 2008

                                       U.S. Senate,
                               Committee on Armed Services,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 9:42 a.m. in room 
SR-325, Russell Senate Office Building, Senator Carl Levin 
(chairman) presiding.
    Committee members present: Senators Levin, Lieberman, Reed, 
Akaka, Warner, Sessions, Collins, Thune, and Martinez.
    Other Senator present: Senator Brownback.
    Committee staff members present: Richard D. DeBobes, staff 
director; and Leah C. Brewer, nominations and hearings clerk.
    Majority staff members present: Madelyn R. Creedon, 
counsel; Gerald J. Leeling, counsel; and Michael J. Noblet, 
professional staff member.
    Minority staff members present: Michael V. Kostiw, 
Republican staff director; William M. Caniano, professional 
staff member; Lynn F. Rusten, professional staff member, and 
Dana W. White, professional staff member.
    Staff assistants present: Kevin A. Cronin, Benjamin L. 
Rubin, and Breon N. Wells.
    Committee members' assistants present: David E. Bonine, 
assistant to Senator Byrd; Elizabeth King, assistant to Senator 
Reed; Darcie Tokioka, assistant to Senator Akaka; Jon Davey, 
assistant to Senator Bayh; Gordon I. Peterson, assistant to 
Senator Webb; Jennifer Cave, assistant to Senator Warner; 
Lenwood Landrum and Todd Stiefler, assistants to Senator 
Sessions; Clyde A. Taylor IV, assistant to Senator Chambliss; 
Jason Van Beek, assistant to Senator Thune; and Brian W. Walsh, 
assistant to Senator Martinez; and Erskine W. Wells III, 
assistant to Senator Wicker.

       OPENING STATEMENT OF SENATOR CARL LEVIN, CHAIRMAN

    Chairman Levin. Good morning, everybody. First, we welcome 
our witnesses this morning. On the panel that we'll have in 
this room, we have Ambassador Chris Hill, Assistant Secretary 
of State for East Asian and Pacific Affairs, and William Tobey, 
Deputy Administrator for Nuclear Nonproliferation, National 
Nuclear Security Administration (NNSA), of the Department of 
Energy.
    Ambassador Hill and Mr. Tobey, we look forward to hearing 
from you today on the current status of the Six-Party Talks and 
efforts to denuclearize the Korean Peninsula. We look forward 
to understanding how the U.S. and other members of the Six-
Party Talks will be able to obtain a full and complete 
declaration of all North Korean nuclear programs, how that 
declaration will be verified, and then how the facilities and 
materials will be disabled and destroyed.
    Resumption of the efforts to denuclearize North Korea is 
most welcome, but long overdue. The administration is almost 
back to where our country was when we pulled out of the Agreed 
Framework, except that we are worse off. North Korea has 
produced more plutonium and more nuclear warheads. It has 
conducted a nuclear test and has withdrawn from the 
Nonproliferation Treaty. That means that Ambassador Hill and 
Mr. Tobey are left with the difficult task of trying to turn 
back the clock and once again not only halt plutonium 
production, but also to get an accurate accounting of all of 
the plutonium that's been produced by North Korea, determine 
the status of the uranium enrichment program, and get the 
plutonium that is there under safeguards and their bombs 
destroyed.
    What cannot be undone, however, is the knowledge that North 
Korea has gained in their nuclear development program since 
2002. Through its nuclear weapons test, North Korea clearly 
proved that it has the ability to produce nuclear weapons. That 
knowledge will always exist and with it the concern that a 
weapons program could be resumed or the knowledge proliferated.
    When we complete the first panel, we are going to move to a 
closed session in room S-407 of the Capitol. Ambassador Hill 
and Mr. Tobey will be joined by Ambassador Joseph DeTrani, 
who's the North Korean Mission Manager; and Vann Van Diepen, 
National Intelligence Officer for Weapons of Mass Destruction, 
both of whom are from the Office of the Director of National 
Intelligence.
    [The prepared statement of Senator Levin follows:]

                Prepared Statement by Senator Carl Levin

    Good morning. Welcome to our witnesses this morning. On the first 
panel we have Ambassador Christopher Hill, Assistant Secretary of Slate 
for East Asian and Pacific Affairs; and William Tobey, Deputy 
Administrator for Nuclear Nonproliferation, National Nuclear Security 
Administration (NNSA), Department of Energy. Ambassador Hill and Mr. 
Tobey we look forward to hearing from you on the current status of the 
Six-Party Talks with North Korea and efforts to denuclearize the Korean 
peninsula.
    Most importantly we look forward to understanding how the US and 
the other members of the Six-Party Talks will be able to obtain a full 
and complete declaration of all North Korean nuclear programs, how that 
declaration will be verified, and then how the facilities and materials 
will be disabled and destroyed.
    Resumption of the efforts to denuclearize North Korea is most 
welcome but long overdue. The administration is almost back to where 
our country was when we pulled out of the Agreed Framework except that 
we are worse off--North Korea has produced more plutonium and more 
nuclear warheads, it conducted a nuclear test and withdrew from the 
Nonproliferation Treaty.
    Ambassador Hill and Mr. Tobey you are left with the difficult task 
of trying to turn back the clock and once again not only halt plutonium 
production but also get an accurate accounting of all the plutonium 
produced, determine the status of the uranium enrichment program, get 
the plutonium under safeguards and the bombs destroyed. What cannot be 
undone, however, is the knowledge that North Korea gained in their 
nuclear development program since 2002. Through its nuclear weapons 
test North Korea clearly proved that it has the ability to produce 
nuclear weapons. That knowledge will always exist and with it the 
concern that a weapons program could be resumed or the knowledge 
proliferated.
    When we complete the first panel we will move to a closed session 
in room S-407 of the Capitol. Ambassador Hill and Mr. Tobey will be 
joined by Ambassador Joseph Detrani, North Korean Mission Manager, and 
Vann Van Diepen, National Intelligence Officer for Weapons of Mass 
Destruction, both of whom are from the Office of the Director of 
National Intelligence.
    Ambassador Hill we will begin with you. Please proceed with your 
opening statement.

    Chairman Levin. Senator Warner.

                STATEMENT OF SENATOR JOHN WARNER

    Senator Warner. Thank you, Mr. Chairman.
    Welcome, gentlemen. I welcome all my colleagues and others 
who are here today.
    Mr. Chairman, I'm going to ask that I put my whole 
statement in the record, but I want to talk about a couple of 
aspects of this very important hearing this morning. I had the 
opportunity to consult with Ambassador Hill and I asked that he 
address this morning the subject of human rights as a part of 
his presentation in the opening statement and then respond to 
such questions as may be propounded on this issue.
    Mr. Ambassador, I have read through the testimony that you 
are submitting before the committee and I commend you for that 
action. I also commend you for what I think is one of the great 
chapters in the contemporary history of the Department of State 
and indeed, under the direction of the President and others, in 
achieving the current status with regard to North Korea, and 
indeed it's the whole Korean Peninsula that we're addressing. 
We're anxious to hear about the further progress we hope that 
you can make on the ground over there.
    I want to say a word about the President's nominee to be 
Ambassador to South Korea. As I understand, she was a principal 
deputy. Her name is Kathy Stephens. I have met with her, talked 
with her at length. She has an extraordinary background. In my 
judgment, she is very, very capable of taking on this heavy 
responsibility.
    I hope that the Senate--and I will so address the Senate on 
the floor--can proceed to a confirmation before the August 
recess to enable her to be there for the important visit, as I 
understand, scheduled by the President.
    I say that, Mr. Chairman, with a deep sense of humility 
because in 1951-1952 I was a young officer in the Marine Corps 
stationed for a brief period in Korea during that conflict. 
That conflict is one that's very important to me. My 
participation was of no great consequence, but I certainly 
served alongside others who gave their full measure, their life 
and their limb, to see that South Korea would be preserved as a 
free and sovereign nation.
    Of course, we had the United Nations (U.N.) forces in 
there. 37,000 Americans lost their life in enabling South Korea 
to survive as a sovereign nation. I think it's just important, 
the progress that's been made to maintain peace on that 
peninsula and to limit the capabilities of North Korea to 
project in one way or another either its influence or through 
the sales of weaponry or other issues, project beyond the 
shores of that peninsula and place in harm's way innocent 
people, wherever they may be, on the planet today.
    I think the steps that you've achieved thus far are to be 
commended. Once again, I'll have further to say on the floor of 
the Senate, but I ask the chairman if part of my allocation of 
time on questions could be yielded to Senator Brownback, whom 
you know very well, of the Foreign Relations Committee. He, as 
well as some other Senators, have understandable concerns on 
the issue of human rights and I do hope that a colloquy between 
the two of you can occur as a part of this hearing, which would 
underlie the hopeful confirmation by the Senate before the 
August recess of Ambassador Stephens.
    I thank the chair.
    [The prepared statement of Senator Warner follows:]

               Prepared Statement by Senator John Warner

    I join Chairman Levin in welcoming our witnesses today. Given 
recent developments in the Six-Party Talks with North Korea, it is 
important that the committee receive this update on the negotiations 
and the prospects for continued progress in persuading North Korea to 
disable, dismantle, and ultimately abandon its nuclear weapons program.
    Ambassador Hill, you have faced many challenges in negotiating with 
a most difficult adversary--North Korea, in coordinating with our 
foreign partners in this effort, and in navigating a delicate political 
landscape right here in the U.S. Government and Congress. I thank you 
for your dedicated service, and commend you for the success you have 
achieved to date. The committee is keenly interested in your report 
this morning.
    We are also eager to hear about the progress being made on the 
ground in North Korea, to include the role the National Nuclear 
Security Administration is playing in implementation and verification 
of North Korea's denuclearization commitments. In addition, we welcome 
our witnesses from the Office of the Director of National Intelligence 
who we hope will shed light on North Korea's intentions, its nuclear 
declaration, and its nuclear and missile programs.
    Mr. Chairman, a word about a chapter in the history of the Korean 
Peninsula. I note the 55th anniversary of the Korean War Armistice. I 
acknowledge, with a deep sense of humility, that I was privileged to 
serve in Korea with the U.S. Marine Corps for a brief time during the 
1951-1952 period of the Korean War. I bring a unique and heartfelt 
perspective to the past and present American involvement, with other 
nations, on the Korean Peninsula. Last week, I attended a solemn 
ceremony on the occasion of the 55th Anniversary of the Korean War 
Armistice. This event, sponsored by Senator Cardin and House Majority 
Leader Hoyer, honored the sacrifice and service of our Armed Forces in 
that war, where over 36,000 Americans gave their lives. Over 100,000 
were wounded and today, a number of prisoners of war are still missing. 
American forces were a part of a United Nations force structure. Fifty-
five years later, the Republic of Korea remains a free democracy and 
faithful ally to our Nation.
    Because of my deep and abiding interest in Korea, and the 
relationship between our two nations, I requested a meeting with Ms. 
Kathleen Stevens, the President's nominee to be the next U.S. 
Ambassador to the Republic of Korea. I was impressed to hear that she 
started her distinguished career as a Peace Corps volunteer serving in 
rural South Korea. Her impressive experience rising through the ranks 
of the Foreign Service, up to and including her service as Principal 
Deputy and Political Advisor in the Bureau of East Asian and Pacific 
Affairs at the Department of State, combined with her fluency in the 
Korean language, make her uniquely and immensely qualified to be our 
next Ambassador to the Republic of Korea. If confirmed, she would 
succeed another outstanding Foreign Service Officer--Ambassador Sandy 
Vershbow--who has served with distinction, but is slated to leave Seoul 
in September.
    Our President will travel to Asia next week for the Olympics, 
stopping first in Seoul. I think it is critically important that he be 
able on that visit to announce the confirmation of the next U.S. 
Ambassador to the Republic of Korea.
    Therefore, I am urging my colleagues in the Senate to allow Ms. 
Stephens' nomination to be called up and voted upon before the Senate 
leaves for the summer recess.
    With that I will conclude my remarks and look forward to our 
witnesses' testimony.

    Chairman Levin. Thank you very much, Senator Warner.
    Ambassador Hill?

  STATEMENT OF HON. CHRISTOPHER R. HILL, ASSISTANT SECRETARY, 
 BUREAU OF EAST ASIAN AND PACIFIC AFFAIRS, DEPARTMENT OF STATE

    Ambassador Hill. Thank you very much, Chairman Levin. Thank 
you very much, Senator Warner and distinguished members of this 
committee, for inviting me to come here and give you an update 
on the status of our efforts to achieve verifiable 
denuclearization of the Korean Peninsula through this Six-Party 
process.
    I have a lengthy statement which, with your permission, I'd 
like to submit for the record, but make some comments drawing 
on that.
    Chairman Levin. We thank you for that. The entire statement 
will be made a part of the record.
    Ambassador Hill. Mr. Chairman, in addition to discussing 
what we are doing to try to achieve denuclearization of the 
Korean Peninsula, I would also like to talk today about our 
broader vision, as outlined in the 2005 joint statement, for 
the overall region and to ensure that region enjoys the 
benefits of human rights protection and also economic 
development that would accompany this denuclearization.
    Senator Warner has spoken of his sacrifice, of his time in 
the Korean War. Some 55 years ago this month was the armistice. 
Senator Warner, I want to say to you, as someone who has spent 
a good bit of time on the Korean Peninsula, how important your 
efforts have been to that part of the world. South Korea today 
is one of the world's most vibrant economies, but, more 
importantly than that, it's one of the world's most vibrant 
democracies. It provides freedoms for its people. It provides 
human rights for its people. I think if you trace that human 
rights record, which wasn't easy to achieve and wasn't achieved 
overnight, but when you go back through the decades, when you 
look back at what happened in the 1990s, especially what 
happened in the 1980s with the student movement there, with the 
movement to release political prisoners--and I might mention in 
that regard, Senator Warner, that the candidate to become our 
next ambassador was very much involved as the Human Rights 
Officer of those times.
    They were very difficult times. But none of this would have 
been possible without the sacrifice of your fellow soldiers and 
sailors, the efforts during that terrible war to maintain 
freedom there. So I think for all people who participated in 
that war, they can be very, very proud of what was achieved.
    Our duty now is to see if we can achieve that, not only for 
the Republic of Korea, South Korea, but now to bring some of 
those freedoms to the people in North Korea. To get to that 
point, we need to focus very heavily on this, on 
denuclearization. But I want to stress, that is not the only 
area of our focus.
    Senator Warner. Thank you, Mr. Ambassador.
    I wish to note, Mr. Chairman and others, that it is the 
55th anniversary of that conflict, and we had two very solemn 
ceremonies here on Capitol Hill to allow veterans and others 
who participated in that conflict--I've always said mine was 
very modest compared to the others. But it is well remembered 
across America the sacrifices that this country and those other 
nations of the U.N. at that time--it was a U.N. force 
structure--that participated in providing the security for 
South Korea.
    Chairman Levin. One of the most extraordinary memorials in 
Washington is the Korean War Memorial, which too many people 
don't even know about, but when they go there they are 
absolutely stunned by its impact.
    Thank you, Ambassador.
    Ambassador Hill. If I could also mention that I'm very 
pleased to be joined here today by my colleague Will Tobey from 
the Department of Energy. The Department of Energy has a very 
key role in this process of denuclearization. Will and I have 
done some traveling together out there to the region. We've 
done some negotiating together, and I'm very pleased to have 
Will here today.
    Mr. Chairman, we have made some important progress on the 
Six-Party Talks, but I must tell you as a person involved in it 
that we have a lot more to be done in order to implement the 
September 2005 joint statement, that is to achieve verifiable 
denuclearization and to achieve a better life on the Korean 
Peninsula.
    Before turning, however, to the specific status of 
implementation of the Six-Party Agreements, I do want to 
reflect a little on the Six-Party process. In October 2002, 
President Bush and Chinese President Jiang Zemin discussed 
creating a Six-Party framework to deal with this, with the 
problem of North Korea's nuclear ambitions. Our President made 
it very clear that the United States alone cannot solve this 
problem. We need partners. We need to work with others. Indeed, 
we need to make sure that others understand that this is a 
problem that doesn't just threaten the U.S.; it threatens them 
as well.
    Over the past 6 years we have seen the strategic importance 
of this framework, not only for dealing with the nuclear issue, 
but also for Northeast Asia more generally. Multilateral 
diplomacy takes time and effort, as President Bush has said 
from time to time. Merging the interests of six parties is not 
easy. I must say, as I've said before, it offers no refuge for 
those in need of instant gratification. It requires concerted 
efforts. I think in working with our partners we have achieved 
some accomplishments.
    I would say our close cooperation with China in the Six-
Party Talks has had implications beyond the Korean Peninsula 
and Northeast Asia. I believe it's had an important impact on 
China's emergence as a responsible stakeholder in the region. 
It is very important that we find ways to work with China. We 
hold China to certain international standards, whether it be in 
the proliferation area or the human rights area, and I think 
one of the best ways we've been able to do that is through the 
Six-Party process.
    The Six-Party framework works because each nation 
represented at the table has a shared interest in a peaceful, 
stable, and denuclearized Korean Peninsula, and it makes North 
Korea accountable not just to us, but to all of its neighbors. 
The process is based on the principle of action for action. 
This was very much embodied in the September 2005 joint 
statement. That statement lays out the goals for the process, 
requiring that all the parties undertake to promote economic 
cooperation in the field of energy, trade, and investment. It 
also looks to bring the international standards in all areas to 
this Korean Peninsula, in particular to the Democratic People's 
Republic of Korea (DPRK).
    To be sure, this is a broad vision and full implementation 
of this joint statement would not only offer the North Korean 
people a better future, but it would provide a foundation for 
regional peace and stability based on recognized norms of 
international relations, including human rights.
    Of course, this ambitious agenda cannot be realized all at 
once. The parties agreed to take a phased approach to reaching 
these goals. Each of these phases have been challenging, but we 
are making some progress. The action-for-action process has 
allowed us to build trust as each side knows that the process 
will only move forward when each side fulfills its commitments. 
Under the framework, DPRK receives something from the other 
parties only as it moves forward in its own commitments.
    So what is the status of these agreements? The initial 
phase was concluded in 2007 and we're currently completing the 
second phase actions and we hope moving into the third phase of 
implementation. In the first two phases, we've made some 
important progress. Under the February 2007 agreement on 
initial actions, the DPRK shut down and sealed its core nuclear 
facility and invited the International Atomic Energy Agency 
(IAEA) personnel to conduct monitoring and verification. IAEA 
personnel have remained in place, monitoring the shutdown and 
sealing of the Yongbyon nuclear facility, since July 2007. 
Indeed, it was only 1 year ago this month that North Korea shut 
down its production of plutonium.
    Under the October 2007 agreement on second phase actions, 
the DPRK took significant steps to disable its three core 
Yongbyon nuclear facilities, and on June 26, just about a month 
ago, it provided a declaration of all of its nuclear programs 
to the Chinese chair. On June 27, in an important symbol of its 
commitment to the process, it collapsed the cooling tower at 
Yongbyon to make clear that it has no intention of reviving 
this facility, this nuclear facility, in the future.
    Since November 2007, a rotating team of U.S. experts has 
been on the ground overseeing disablement of the three core 
nuclear facilities. North Korea is no longer able to produce 
weapons-grade plutonium at Yongbyon. It's completed some eight 
out of eleven agreed disablement tasks. It's discharged more 
than half of the 8,000 spent fuel rods from the reactor. When 
it completes all of these 11 steps, it would have to expend 
significant time and effort, upwards of 12 months, maybe more, 
if it ever wanted to reconstitute the facilities. Our experts--
and Mr. Tobey can speak in far greater detail on this--continue 
to report good working cooperation with the DPRK experts on the 
site.
    The declaration package that the DPRK provided to the 
Chinese on June 26 addresses its nuclear program and 
acknowledged our concerns about uranium enrichment and its past 
nuclear proliferation activities, specifically with Syria.
    The DPRK's declaration is not an end point, however, in our 
efforts to understand their nuclear program. Frankly, it's the 
basis now of a rigorous process of verifying all of their 
nuclear programs. We have reviewed copies of 18,000 pages of 
documents handed over to us by the North Koreans, consisting of 
operating records from its 5-megawatt reactor in Yongbyon going 
back to 1987, and the reprocessing facility that they gave us 
in May, and already it's producing some results.
    The six parties have agreed on general principles for 
verification that are guiding the ongoing discussions of a 
verification mechanism. These principles include access to 
facilities, documents, and interviews with personnel, and other 
measures as agreed by the Six Parties.
    In response to the North Korean actions to fulfil its 
commitments, the U.S. has also moved on fulfilling our second 
phase commitments. On June 26, President Bush announced that he 
was terminating the exercise of authorities under the Trading 
With the Enemy Act with respect to North Korea and notified 
Congress of his intent to rescind designation of North Korea as 
a state sponsor of terrorism following a minimum 45-day 
congressional notification period.
    The President made very clear that during this 45-day 
period we would use that period to assess the DPRK cooperation, 
including on reaching an agreement on a verification protocol. 
Indeed, one cannot talk about a declaration without 
verification. They go hand-in-hand.
    North Korea is also receiving some energy assistance in 
return for its denuclearization actions. To date they've 
received some 420,000 tons of heavy fuel oil and equivalent 
assistance, including 134,000 tons of heavy fuel oil provided 
by the U.S. heavy fuel oil, equivalent material, and equipment 
provided has also been consistent with U.S. laws controlling 
exports to the DPRK.
    On July 12, the six parties announced agreement to work in 
parallel to complete all of the disablement work at Yongbyon 
and to contract to deliver remaining energy assistance by the 
end of October. That means that if the DPRK wants more energy 
assistance they will have to do more denuclearization.
    The U.S. remains very much concerned about outstanding 
questions relating to North Korea's uranium enrichment efforts 
and proliferation. We'll continue to engage the DPRK in 
detailed and candid discussions on these issues until these 
issues are resolved in a verifiable way. The six parties have 
agreed to establish a monitoring mechanism, that all six 
parties have agreed to, to track all parties' obligations, 
including, and from our perspective especially, 
nonproliferation. We will use this mechanism to hold the DPRK 
to its commitment not to transfer nuclear materials, 
technology, or know-how. This is a commitment they have made to 
the other five. That commitment was in the October statement 
and we will monitor it with great care.
    We will continue to press the DPRK to address questions 
about Japanese abductees. We'll continue to urge North Korea at 
every opportunity to address Japan's concerns. Japan is an 
important friend and ally of the United States. We'll continue 
to consult closely with the Japanese Government as we move 
forward. We have done this at every step of the way. Any move 
we have made with respect to the DPRK, we have worked very 
closely with the Japanese as our allies. Keep in mind that 
Japan has some special concerns here, namely the fact that 
several of their citizens, an undetermined number of citizens, 
were actually abducted, in some cases right off the streets of 
Japan, in the late 1970s and early 1980s. Those citizens, 
whether the number is 12 or 20 or whether it's more, as some 
people do believe, there needs to be a proper accounting on 
that, and we have pressed the DPRK and I can assure you we will 
continue to press them because we consider that something that 
has to be addressed if we're going to achieve this sense of 
neighborhood in Northeast Asia that we're looking for.
    But even as we make progress on these second phase actions 
and begin to move into the third and final denuclearization 
phase, significant work remains, including the abandonment of 
North Korea's nuclear weapons programs, the dismantlement of 
all of their facilities, and the removal of fissile material 
from the country and the verification that indeed there is an 
absence of fissile material. That is, once they have removed it 
we need to make sure that all of it has been removed and taken 
from the country.
    In exchange, the United States is prepared to transform our 
relationship with North Korea into a more normal relationship. 
The U.S. and the DPRK are committed to improving bilateral 
relations and working toward full diplomatic relations, and one 
way we'll do this is by increasing bilateral exchanges aimed at 
enhancing mutual trust.
    The issue of human rights will be a key element of this 
normalization process. We will continue to press the DPRK for 
the kind of meaningful progress that will be necessary for the 
DPRK to join the international community. The DPRK's human 
rights records is, quite frankly, abysmal and every day that 
the people of North Korea continue to suffer represents an 
unacceptable continuation of oppression.
    I have personally seen satellite images of the DPRK's 
extensive prison camp system. This is truly a scar on the 
Korean Peninsula, in which it is reported that North Koreans 
suffer torture, forced abortion, and in some cases execution. 
The dangers faced by North Korean refugees who flee their 
country in search of a better life, often only to face 
suffering or eventual repatriation with a very uncertain fate, 
are similarly unacceptable.
    The United States' dedication to improving the lives of the 
North Korean people will never wane and we will continue to 
seek all available opportunities to improve this heartbreaking 
situation. We have repeatedly made clear to the DPRK that human 
rights is not only a U.S. priority, frankly it's an 
international priority. It is part of the standard of joining 
the international community. We've emphasized how much we value 
the advancement of human rights in all societies and our need 
to have this and other outstanding issues of concern discussed 
in the normalization process.
    We note, for example, that the Republic of Korea's National 
Assembly is currently considering legislation that also 
addresses North Korean human rights issues. Our Special Envoy 
on Human Rights to North Korea, Jay Lefkowitz, plans to travel 
to Seoul soon and we'll look for every opportunity to work with 
our partners in the region on our shared goal for a better 
future for the people of North Korea.
    On a separate track, to respond to severe food shortages in 
the DPRK, the United States has joined in an international 
effort to provide food assistance to the DPRK in June, after 
establishing a strong framework to ensure that food will reach 
those most in need. The administration also shares the desires 
of families and veterans from the Korean War to resume remains 
recovery operations in North Korea and we're prepared to do so 
at an appropriate time. The Department of Defense temporarily 
suspended remains recovery operations in May 2005 due to 
concern about our personnel and about heightened tensions 
between the U.S. and North Korea. As soon as we believe it's 
appropriate to reengage with North Korea on this to make sure 
that once we reengage our engagement can be sustained and not 
stopped again, we'll ensure that Congress is indeed informed.
    Full implementation of the September 2005 joint statement 
may also provide a way forward for the transformation of the 
overall security relationships in Northeast Asia. The U.S. 
believes that a discussion of a Korean Peninsula peace regime 
could begin early in this next phase. We achieve a permanent 
peace arrangement on the Korean Peninsula once North Korea has 
verifiably denuclearized.
    We also hope to move forward in the development of a 
Northeast Asia peace and security mechanism that could help 
further solidify the cooperative relationships built through 
the Six-Party process.
    While we have made important progress toward full 
implementation of the September 2005 joint statement, much work 
remains to be done to verifiably denuclearize DPRK. We must 
continue to work forward in the Six-Party process to realize 
their abandonment of all nuclear weapons, existing nuclear 
programs in accordance with all their commitments, as well as 
to have them return to the Treaty on Nonproliferation of 
Nuclear Weapons and IAEA safeguards. We'll continue to work 
very closely with our Six-Party partners as we work forward in 
the tough tasks that lie ahead.
    I want to thank you once again for allowing me to appear 
here and I stand ready to answer any and all of your questions. 
Thank you.
    Chairman Levin. Ambassador, thank you very much. Thank you 
for your long commitment and your professionalism and your 
steadfastness.
    [The prepared statement of Ambassador Hill follows:]

             Prepared Statement by Hon. Christopher R. Hill

                              INTRODUCTION

    Thank you, Chairman Levin, Senator McCain, and distinguished 
members for inviting me to update you on the status of our efforts to 
achieve the verifiable denuclearization of the Korean Peninsula through 
the Six-Party process. I also want to talk today about our broader 
vision--as outlined in the September 2005 Joint Statement--of a region 
where the benefits of human rights protections and economic development 
go along with progress on denuclearization. I am pleased to be joined 
today by my colleague Will Tobey from the Department of Energy (DOE), a 
key partner in the implementation of our Six-Party agreements.
    We have made important progress recently in the Six-Party Talks, 
but much work remains for the full implementation of the September 2005 
Six-Party Joint Statement and the verifiable denuclearization of the 
Korean Peninsula. Before turning to the specific status of 
implementation of Six-Party agreements, I want to reflect on the 
importance of the Six-Party framework that we have built.

                        THE SIX-PARTY FRAMEWORK

    In October 2002, President Bush and Chinese President Jiang Zemin 
discussed creating a Six-Party framework to deal with the North Korean 
nuclear issue. Over the past 6 years, we have seen the strategic 
importance of this framework not only for dealing with the important 
North Korean nuclear issue, but for Northeast Asia more generally. 
Multilateral diplomacy takes time and effort, and merging the interests 
of six countries is not an easy feat. Yet, it is because of our common 
interests in the region and our concerted efforts that we have achieved 
important accomplishments to date.
    Throughout this process, the Chinese Government, which chairs the 
Six-Party Talks, has played a key role. Our close cooperation with 
China in the Six-Party Talks has implications beyond the Korean 
Peninsula and Northeast Asia, and has an important, salutary impact on 
China's emergence as a responsible stakeholder in the region.
    The Six-Party framework works because each nation represented at 
the table has a shared interest in a peaceful, stable and denuclearized 
Korean Peninsula, and because North Korea is accountable to all of its 
neighbors for its actions. Each of these nations complements one 
another in our efforts to hold North Korea to its commitments.
    The Six-Party process is based on the principle of ``action-for-
action,'' which was embodied in the September 2005 Six-Party Joint 
Statement. The Joint Statement lays out the goals of the Six-Party 
Talks, most importantly the Democratic People's Republic of Korea 
(DPRK) commitment to abandon all nuclear weapons and existing nuclear 
programs, and return to the Treaty on the Non-Proliferation of Nuclear 
Weapons and to International Atomic Energy Agency (IAEA) safeguards. 
The Parties undertook to promote economic cooperation in the fields of 
energy, trade and investment, bilaterally and/or multilaterally, and 
the other Parties described their willingness to provide energy 
assistance to the DPRK. The joint statement outlines a vision for 
transforming relations in Northeast Asia, including through 
normalization of bilateral relations with the DPRK, exploration of ways 
and means for promoting security cooperation in Northeast Asia, and 
negotiation among directly related parties of a Peace Regime on the 
Korean Peninsula.
    This is a broad vision. Full implementation of the September 2005 
Joint Statement would not only offer the North Korean people a better 
future, but also provide a foundation for regional peace and stability, 
based on recognized norms of international relations, including human 
rights. Of course, this ambitious agenda cannot be realized all at 
once. Rather, the Parties agreed to take a phased approach to reaching 
these goals. Each of these phases has been challenging, but we have 
made important progress throughout each phase. With each step forward, 
we have reduced the number of tasks before us.
    The action-for-action approach has allowed us to build trust, as 
each side knows that the process will only move forward when each party 
fulfills its commitments. Under this framework, the DPRK receives 
something from the other Parties only as it moves forward on its 
commitments. This process of building trust is of great importance, for 
the tasks will only become more difficult as we progress.

                  CURRENT STATUS OF SIX-PARTY ACTIONS

    So what is the status of the implementation of these agreements? 
The Initial Phase was concluded in July 2007. We are currently 
completing Second Phase actions and moving into the Third Phase of 
implementing the September 2005 Joint Statement. In the first two 
phases, we have made important progress. Under the February 13, 2007 
agreement on ``Initial Actions for the Implementation of the Joint 
Statement,'' the DPRK shut down and sealed core nuclear facilities and 
invited back the IAEA to conduct monitoring and verification 
activities. IAEA personnel have remained in place, monitoring the shut-
down and sealing of the Yongbyon nuclear facility, since July 2007. 
Under the October 3, 2007 agreement on ``Second Phase Actions for the 
Implementation of the Joint Statement,'' the DPRK has taken significant 
steps to disable three core Yongbyon nuclear facilities, and on June 
26, it provided a declaration of its nuclear programs to the Chinese 
chair. On June 27, in an important symbol of its commitment to the 
disablement process, North Korea collapsed the cooling tower at 
Yongbyon before the international media.
    Since November 2007, a rotating team of U.S. experts has been on 
the ground overseeing disablement of the three core nuclear facilities 
at Yongbyon, and North Korea is no longer able to produce weapons-grade 
plutonium at Yongbyon. As of today, the DPRK has completed 8 out of 11 
agreed disablement tasks, and has discharged more than half of the 
8,000 spent fuel rods from the 5-MW(e) reactor. Upon completion of all 
11 steps, the DPRK would have to expend significant effort, and time--
upwards of 12 months--to reconstitute all of the disabled facilities. 
Our experts continue to report good cooperation with DPRK experts at 
the site.
    The declaration package that the DPRK provided to the Chinese on 
June 26 addresses its plutonium program, and acknowledged our concerns 
about the DPRK's uranium enrichment and nuclear proliferation 
activities, specifically with regard to Syria. The DPRK's declaration 
is not an end point in our efforts to understand North Korea's nuclear 
programs, but rather is the basis for a rigorous process of verifying 
all of the DPRK's nuclear programs. Review of the copies of 19,000 
pages of documents, consisting of copies of operating records from its 
5-MW(e) reactor at Yongbyon and the reprocessing facility, that the 
DPRK provided to the United States in May, is already producing 
results. The Six Parties have agreed to general principles for 
verification that are guiding ongoing discussions of a verification 
mechanism. These principles include access to facilities, documents, 
and interviews with personnel, and other measures as agreed by the Six 
Parties. The verification process would include participation by 
experts from the Six Parties and the IAEA.
    In response to the DPRK's actions to fulfill its Second Phase 
commitments, the United States has also moved forward on fulfilling our 
Second Phase commitments. On June 26, President Bush announced that he 
was terminating the exercise of authorities under the Trading with the 
Enemy Act with respect to the DPRK, and notified Congress of his intent 
to rescind designation of the DPRK as a state sponsor of terrorism 
following the 45-day congressional notification period. The President 
made clear that we would use this 45-day period to assess the DPRK's 
cooperation, including on reaching agreement on a verification 
protocol, and respond accordingly.
    North Korea is also receiving energy assistance in return for its 
denuclearization actions in the First and Second Phases--equivalent to 
1 million tons of Heavy Fuel Oil (HFO). To date, the DPRK has received 
approximately 420,000 tons of HFO and equivalent assistance, including 
134,000 tons of HFO provided by the United States. HFO-equivalent 
materials and equipment provided have been consistent with U.S. laws 
controlling exports to the DPRK. On July 12, the Six Parties announced 
agreement to work in parallel to complete all remaining disablement 
work at Yongbyon and to contract for or deliver remaining energy 
assistance by the end of October.
    Even as we have seen progress on these fronts, the United States 
remains concerned about outstanding questions relating to North Korea's 
uranium enrichment efforts and proliferation. We will continue to 
engage the DPRK in detailed and candid discussions on these issues 
until North Korea resolves these concerns in a verifiable manner. The 
Six Parties have agreed to establish a monitoring mechanism to track 
all Parties obligations--including nonproliferation and provision of 
energy assistance. We will use this mechanism to hold the DPRK to its 
commitment ``not to transfer nuclear materials, technology, or know-
how.'' The North Koreans are also cognizant of the fact that United 
Nations Security Council Resolution 1718 remains in effect.
    At the same time, the United States will continue to press the DPRK 
to address questions about the Japanese abductees. We will continue to 
urge the DPRK at every opportunity to address Japan's concerns. Japan 
is an important friend and ally of the United States, and we will 
continue to consult closely with the Japanese government as we move 
forward.

                   OFFERING THE DPRK A BETTER FUTURE

    Even as we make progress toward finalizing Second Phase actions and 
begin moving into the Third, and final, denuclearization Phase, 
significant work remains, including abandonment of North Korea's 
nuclear weapons and existing nuclear programs, dismantlement of all 
North Korea's nuclear facilities, removal of all fissile material, and 
verification of North Korea's denuclearization.
    In exchange, the United States is prepared to transform our 
relations with the DPRK into a more normal relationship. The United 
States and DPRK have committed to improving bilateral relations and 
working toward full diplomatic relations. One way we will seek to do 
this is by increasing bilateral exchanges between the United States and 
DPRK aimed at enhancing mutual trust.
    The issue of human rights will be a key element of the 
normalization process. We will continue to press the DPRK for the kind 
of meaningful progress that will be necessary for the DPRK to join the 
international community. The DPRK's human rights record is abysmal, and 
every day that the people of North Korea continue to suffer represents 
an unacceptable continuation of oppression. I have seen satellite 
images of the DPRK's extensive prison camp system--a scar on the Korean 
Peninsula--in which it is reported that North Koreans suffer torture, 
forced abortions, and in some cases execution. The dangers faced by 
North Korean refugees, who flee their country in search of a better 
life, often only to face suffering or repatriation, are similarly 
unacceptable. The United States' dedication to improving the lives of 
the North Korean people will never wane, and we continue to seek all 
available opportunities to improve this heartbreaking situation. We 
have repeatedly made clear to the DPRK that human rights is a U.S. 
priority. We have emphasized how much we value the advancement of human 
rights in all societies, and our need to have this and other 
outstanding issues of concern discussed in the normalization process.
    We note that the ROK's National Assembly is considering legislation 
addressing North Korean human rights. Our Special Envoy on Human Rights 
in North Korea, Jay Lefkowitz, plans to travel to Seoul soon. We will 
look for every opportunity to work with our partners in the region on 
our shared goal of a better future for the people of North Korea. Our 
goal through this process has been and will remain improving the lives 
of the people of North Korea.
    On a separate track, to respond to severe food shortages in the 
DPRK, the United States began providing food assistance to the DPRK in 
June after establishing a strong framework to ensure that the food will 
reach those most in need. The United States also assisted U.S. 
Nongovernmental Organizations (NGOs) in providing aid to fight the 
outbreak of infectious diseases following floods in North Korea last 
summer, and is working with U.S. NGOs to carry out a plan to improve 
the supply of electricity at provincial hospitals in North Korea.
    The administration shares the desire of families and veterans to 
resume remains recovery operations in North Korea, and we are prepared 
to do so at the appropriate time. The Department of Defense temporarily 
suspended remains recovery operations in May 2005 due to concern for 
our personnel during a period of heightened tensions between the U.S. 
and North Korea. As soon as we believe it is appropriate to reengage 
with North Korea on these recovery efforts, we will ensure that 
Congress is informed.
    Full implementation of the September 2005 joint statement may also 
provide a way forward for the transformation of overall security 
relations in Northeast Asia. We remain committed to replacing the 1953 
Armistice with a permanent peace arrangement on the Korean Peninsula. 
The United States believes that discussions of a Korean Peninsula peace 
regime could begin early in the Third Phase. We can achieve a permanent 
peace arrangement on the Korean Peninsula once the DPRK has verifiably 
denuclearized. We also hope to move forward on the development of a 
Northeast Asia Peace and Security Mechanism, which could help further 
solidify the cooperative relationships built through the Six-Party 
process and provide a means for the parties to work together to address 
issues including greater economic opportunity and greater human rights 
protections for their citizens.
    Our denuclearization efforts in the Third Phase will require 
substantial funding, and we welcome Congress' provision of the 
additional authorities necessary to undertake these important tasks. 
While the State Department's Nonproliferation and Disarmament Fund may 
continue to shoulder some costs in the Third Phase, we are hopeful that 
DOE will be able to provide funding, if the President exercises the 
recently enacted authority to waive needed elements of the Glenn 
Amendment sanctions imposed on the DPRK. My DOE colleague will speak to 
those estimates. We look forward to working with Congress to ensure 
that the administration has the necessary funding to undertake these 
important tasks.

                             THE ROAD AHEAD

    While we have made important progress toward the full 
implementation of the September 2005 joint statement, much work remains 
on the road to verifiable denuclearization of the DPRK and all the 
goals laid out in that document. We must continue to move forward in 
the Six-Party process to realize the DPRK's abandonment of all nuclear 
weapons and existing nuclear programs in accordance with the September 
2005 joint statement, as well as its return to the Treaty on 
Nonproliferation of Nuclear Weapons and to IAEA safeguards. We will 
continue to work closely with our Six-Party partners as we move forward 
on the tough tasks that lie ahead.
    Thank you for the opportunity to appear before you today. I am 
happy to answer your questions.

    Chairman Levin. Mr. Tobey?
    Senator Warner. I wish to join you, Mr. Chairman, in that 
observation.
    Chairman Levin. Thank you.

 STATEMENT OF HON. WILLIAM H. TOBEY, DEPUTY ADMINISTRATOR FOR 
  DEFENSE NUCLEAR NONPROLIFERATION, NATIONAL NUCLEAR SECURITY 
              ADMINISTRATION, DEPARTMENT OF ENERGY

    Mr. Tobey. Chairman Levin, Senator Warner, members of the 
committee: Thank you very much for the opportunity to discuss 
achieving verifiable denuclearization of the Korean Peninsula. 
You and Ambassador Hill have eloquently defined the important 
context for our work, one that includes both conflict and the 
political and economic success of the Republic of Korea, and 
I'm certainly mindful of that context.
    Since early November 2007, teams of NNSA nuclear monitors 
have maintained a continuous on-the-ground presence at the 
Yongbyon site, overseeing the implementation of agreed 
disablement tasks. Ambassador Hill has detailed the progress 
that has been made on those tasks and I agree with his 
characterization and I won't repeat that assessment.
    Of course, North Korea's pledge to abandon all existing 
nuclear programs extends beyond the plutonium production plants 
at Yongbyon. It also includes other nuclear facilities or 
activities to be subject to verification, as agreed by the Six 
Parties.
    Working level cooperation between U.S. teams and their 
North Korean counterparts has been generally constructive. Our 
experts have been able to perform maintenance on installed 
monitoring equipment, access the spent fuel pond to measure 
water temperature, clarity, and pH levels, and access the 
reprocessing plant and fuel fabrication plant to verify that 
completed disablement tasks remain in effect. Our working level 
relationship with IAEA inspectors monitoring the shutdown at 
Yongbyon has also been very strong.
    As Ambassador Hill noted, the Six-Party Talks are moving 
toward Phase Three activities, including negotiation of a 
comprehensive verification protocol and negotiation of 
dismantlement and fissile material removal measures. The NNSA 
will continue to provide policy and technical support to these 
negotiations and we stand ready to implement agreed 
verification measures and other tasks as requested by the Six 
Parties.
    Although the exact details of Phase Three are yet to be 
negotiated, our planning assumption is that the NNSA will be 
called upon to support implementation of comprehensive 
verification and denuclearization measures. We anticipate that 
the costs of implementing Phase Three activities will be 
substantially higher than the costs of Phase Two. To date the 
NNSA has spent approximately $15 million in support of Phase 
Two implementation.
    In addition, the State Department's Nonproliferation and 
Disarmament Fund has provided assistance of approximately $20 
million for the costs of completing disablement activities in 
Phase Two. This assistance has been necessary because the 
Department of Energy has been prohibited by Section 102[b] of 
the Arms Export Control Act, known also as the Glenn Amendment, 
from providing financial assistance to the DPRK in support of 
the denuclearization process.
    By legislation recently enacted which provides the 
President with the authority to waive the so-called Glenn 
Amendment restrictions, Congress has addressed this problem and 
opened the door to more substantial NNSA participation, and I 
thank the committee for its role in passing this legislation.
    If the President exercises this waiver authority, the NNSA 
will be able to procure, ship to North Korea, and use equipment 
required to support the full range of disablement, 
dismantlement, verification, and material packaging and removal 
activities that phase three will likely entail. If these 
activities begin soon and continue at a more rapid pace, we 
estimate that the total implementation costs could amount to an 
additional $34 million in 2008 and over $360 million in fiscal 
year 2009. The bulk of these costs relate to packaging and 
disposition of separated plutonium and spent fuel at Yongbyon. 
But they also cover implementation of critical measures 
necessary to verify North Korea's nuclear declaration and to 
ensure our teams on the ground have adequate protective 
equipment and health physics support.
    The cost to the U.S. Government for this effort could well 
fall on the NNSA, as the lion's share of verification work 
involves the time and expertise of technical specialists from 
the Department of Energy and the NNSA.
    I would like to conclude by reiterating our strong 
commitment to supporting U.S. efforts to achieve the verifiable 
denuclearization of the Korean Peninsula. Through the Six-Party 
process, we have achieved tangible progress towards this goal 
and our dedicated staff of technical experts remains ready to 
provide whatever additional support may be required as the 
process moves forward.
    I thank you again for this opportunity and look forward to 
your questions.
    [The prepared statement of Mr. Tobey follows:]

              Prepared Statement by Hon. William H. Tobey

    Chairman Levin, Ranking Member McCain, and members of the 
committee, thank you for the invitation to appear today to discuss the 
process of achieving verifiable denuclearization of the Korean 
Peninsula. My remarks will focus on: (1) the role of the Department of 
Energy's (DOE) National Nuclear Security Administration (NNSA) in 
implementing agreed denuclearization measures in North Korea; (2) 
progress to date; and (3) planning for anticipated ``Phase Three'' 
verification and material removal activities, including the budget 
requirements for those activities.
    DOE/NNSA provides two main forms of support for U.S. efforts to 
eliminate the nuclear threat posed by North Korea. First, we provide 
technical experts to advise Ambassador Hill and the U.S. delegation to 
the Six-Party Talks, including the Denuclearization Working Group and 
Economy and Energy Cooperation Working Group, on issues related to the 
disablement and dismantlement of North Korea's existing nuclear 
programs as well as verification. Second, we lead technical teams 
responsible for on-the-ground oversight of implementation of 
denuclearization measures agreed to in the Six-Party Talks context.
    Under the September 2005 joint statement, North Korea committed to 
abandoning all of its nuclear weapons and existing nuclear programs and 
returning, at an early date, to the Treaty on the Nonproliferation of 
Nuclear Weapons and International Atomic Energy Agency (IAEA) 
safeguards. As a first step towards this objective, North Korea agreed 
in the February 13, 2007 ``Initial Actions Agreement'' to shut down and 
seal its nuclear facility at Yongbyon, for the purpose of eventual 
abandonment, and also to invite back IAEA inspectors to conduct 
monitoring and verification as agreed between the IAEA and the DPRK. In 
July 2007, the IAEA confirmed that the Yongbyon facility had been shut 
down.
    Under the October 3, 2007 Agreement on Second Phase Actions, North 
Korea agreed to disable all existing nuclear facilities subject to 
abandonment under the 2005 joint statement. North Korea further agreed 
to disable the three core facilities at the Yongbyon site--the 5MW(e) 
reactor, the reprocessing plant, and fuel fabrication plant--by the end 
of 2007. A list of 11 ``Phase II'' disablement tasks was agreed based 
on the findings of a Six-Party team of experts, including a technical 
representative from DOE/NNSA, that visited Yongbyon in September 2007 
to assess the feasibility of various disablement approaches.
    Since early November 2007, teams of DOE/NNSA-led nuclear monitors 
have maintained a continuous on-the-ground presence at the Yongbyon 
site overseeing the implementation of agreed disablement tasks. As of 
today, 8 of the 11 agreed tasks have been completed, including all 
agreed tasks at the reprocessing plant and the fuel fabrication plant. 
Discharge of the nearly 8,000 fuel rods from the core of the 5-MW(e) 
reactor continues, with over 4,000 rods discharged, but progress has 
been slower than anticipated.
    Equipment developed by DOE/NNSA has been installed at the 5-MW(e) 
reactor to monitor the fuel rods as they are discharged. As a result of 
these disablement actions, we estimate that it would take North Korea a 
significant amount of time, upwards of 1 year or more, to reconstitute 
a plutonium production capability at Yongbyon. Of course, North Korea's 
pledge to abandon all existing nuclear programs extends beyond the 
plutonium production plants at Yongbyon. It also includes other nuclear 
facilities or activities to be subject to verification as agreed by the 
Six Parties.
    Working-level cooperation between U.S. teams and their North Korean 
counterparts has been generally constructive. Our experts have been 
able to: perform maintenance on installed monitoring equipment; access 
the spent fuel pond to measure water temperature, clarity, and pH 
levels; and access the reprocessing plant and fuel fabrication plant to 
verify that completed disablement tasks remain in effect. Our working-
level relationship with IAEA inspectors monitoring the shutdown at 
Yongbyon also has been very strong.
    As Ambassador Hill has noted, the Six-Party Talks are moving toward 
Phase Three activities, including negotiation of a comprehensive 
verification protocol and negotiation of dismantlement and fissile 
material removal measures. DOE/NNSA will continue to provide policy and 
technical support to these negotiations, and we stand ready to 
implement agreed verification measures and other tasks as requested by 
the Six Parties.
    While we have been actively planning to support implementation of 
Phase Three, it is difficult to predict the full scope and schedule of 
Phase Three activities. The Six Parties have agreed that verification 
will include access to facilities, documents and personnel, and we 
anticipate that DOE/NNSA will be called on to undertake technical 
measures to implement the verification process. The Six Parties 
continue to work on negotiating a comprehensive verification protocol 
outlining the full scope of verification activities. We hope to begin 
agreed activities quickly once the protocol is in place. The North 
Korean declaration and the more than 18,000 pages of operating records 
provided by the DPRK provides a basis to initiate further verification 
activities. We anticipate that verification will proceed in parallel 
with other Phase Three activities, which we hope will include 
dismantlement of facilities and removal of the DPRK's fissile and other 
nuclear materials.
    Although the exact details of Phase Three are yet to be negotiated, 
our planning assumption is that DOE/NNSA will be called upon to support 
implementation of comprehensive verification and denuclearization 
measures. To plan for something less than this and then be caught 
unprepared is unacceptable.
    We anticipate that the costs of implementing Phase Three activities 
will be substantially higher than the costs of Phase Two. To date, DOE/
NNSA has spent approximately $15 million in support of Phase Two 
implementation. In addition, the State Department's Nonproliferation 
and Disarmament Fund (NDF) has provided assistance of approximately $20 
million for the costs of completing the disablement activities in Phase 
Two. NDF assistance has been necessary because DOE has been prohibited 
by Section 102(b) of the Arms Export Control Act--also known as the 
Glenn Amendment--from providing financial assistance to the DPRK in 
support of the denuclearization process.
    By legislation recently enacted which provides the President with 
the authority to waive Glenn Amendment restrictions, Congress has 
addressed this problem and opened the door to a more substantial DOE/
NNSA role. If the President exercises this waiver authority, DOE/NNSA 
will be able to procure, ship to North Korea, and use equipment 
required to support the full range of disablement, dismantlement, 
verification, and material packaging and removal activities that Phase 
Three will likely entail.
    If these activities begin soon and continue at a more rapid pace, 
we estimate that the total implementation costs could amount to an 
additional $34 million in fiscal year 2008 and over $360 million in 
fiscal year 2009. The bulk of these costs relate to packaging and 
disposition of separated plutonium and spent fuel at Yongbyon, but they 
also cover implementation of critical measures necessary to verify 
North Korea's nuclear declaration and ensure our teams on the ground 
have adequate protective equipment and health physics support. The cost 
to the U.S. Government of this effort will largely fall on DOE/NNSA, as 
the lion's share of verification work involves the time and expertise 
of technical specialists from DOE/NNSA.
    I would like to conclude by reiterating our strong commitment to 
supporting U.S. efforts to achieve the verifiable denuclearization of 
the Korean Peninsula. Through the Six-Party process, we have achieved 
tangible progress towards this goal, and our dedicated staff of 
technical experts remains ready to provide whatever additional support 
may be required as the process moves forward.
    Thank you and I look forward to your questions.

    Chairman Levin. Thank you so much, Mr. Tobey. We're going 
to do a 7-minute round and try to complete the questioning 
during a first round so that we can go to S-407.
    Ambassador, in the 2005 agreement in which North Korea 
agreed to denuclearize, did they agree to dismantle and destroy 
their nuclear weapons? Was that part of the agreement?
    Ambassador Hill. Yes, they did. That is right up at the top 
of the agreement, all nuclear programs, specifically nuclear 
weapons.
    Chairman Levin. Not be ended, but they agreed that they 
would dismantle and destroy those weapons?
    Ambassador Hill. It was that they would be abandoned, and 
``abandoned'' means taken out of the country. We don't have 
information to say how much of the kilos of plutonium that they 
have produced are actually embedded in weapons. But the point 
is all separated plutonium must be abandoned.
    Chairman Levin. Whether it's in weapons or otherwise?
    Ambassador Hill. Yes.
    Chairman Levin. Now, back in 2002 Ambassador James Kelly 
confronted the North Koreans with evidence of a uranium 
enrichment program, and Ambassador Kelly reported that the 
North Korean foreign ministry representative acknowledged that 
North Korea had such a program. Of course, there's been a great 
deal of interest since then in trying to get a bead on that 
program, and we have received a letter apparently from North 
Korea which simply acknowledges U.S. concerns about uranium 
enrichment, but reportedly it does not acknowledge the 
existence of a program.
    Has that letter been made public?
    Ambassador Hill. That letter is part of the declaration 
package that they gave us. Essentially what they have said is 
that they do not now and will not in the future have a highly 
enriched uranium program. They acknowledge our concerns about 
it and also acknowledge the information, our information about 
it.
    What we have tried to do is to pursue with them our 
information to run down the facts that we have. I think in 
closed session I can go into greater detail, but suffice to say 
in this context that we have in our view pretty compelling 
evidence that they made certain purchases that were very much 
in line with a uranium enrichment program. Our effort is to try 
to find out the disposition of those purchases, and they have 
tried to address some of our concerns with some of those 
purchases and have not yet addressed some of our other 
concerns. So it's a work in progress.
    Chairman Levin. But in that letter they deny that they ever 
have had one?
    Ambassador Hill. They did not deny they ever had one. They 
simply deny that they have one now.
    Chairman Levin. Can that letter be made public?
    Ambassador Hill. Let me get back to you on that. It is part 
of the declaration package and it was given as part of the 
package that was given to the six parties, and let me see how 
that can be disseminated.
    Chairman Levin. Well, we would appreciate your informing us 
as to whether or not that letter can be made public and, if 
not, why not.
    Ambassador Hill. All right.
    Chairman Levin. In your judgment, does that letter 
constitute a complete declaration?
    Ambassador Hill. What it constitutes is it provides a basis 
for us to continue to work on that issue such that, since it 
provides that basis, we can eventually make a judgment as to 
whether we have a complete and correct declaration. But we 
cannot make that judgment as of now. The letter obliges North 
Korea to continue to work to address our concerns.
    Chairman Levin. So that as of now we don't have a complete 
declaration on the uranium issue?
    Ambassador Hill. I cannot say that we do. I can only say 
that after we address our concerns with them, and if they are 
fully addressed then I can say, yes, it was complete. But I 
cannot make that statement today.
    [The information referred to follows:]

    As part of North Korea's declaration package, the DPRK acknowledged 
U.S. concerns relating to uranium enrichment. The entire declaration 
package was provided to relevant congressional committees, including 
the Senate Armed Services Committee. The declaration package is 
classified, and therefore, cannot be publicly released.

    Chairman Levin. You made reference in your opening 
statement to the question of our recovery operations for the 
remains of missing Korean War veterans and we appreciate your 
reference to that. It's been an important subject that we press 
very hard to get a satisfactory explanation from our Defense 
Department as to why we have not resumed those recovery 
operations, given the fact that the talks have resumed.
    Your statement is that it's not yet appropriate to reengage 
North Korea on these recovery efforts. Can you be a little more 
explicit as to why it's not yet appropriate?
    Ambassador Hill. Senator, first of all I want to make very 
clear that my colleagues in the Defense Department need to 
address specific questions about this. But I can certainly 
answer the question as you've posed it to me.
    I think one of the concerns is that we don't want a 
situation where things are restarted, only to be stopped again. 
The thinking here is foremost the humanitarian concerns about 
the families. So when these efforts are restarted, we want them 
to be sustained and not stopped again.
    I can tell you, speaking from my vantage point, that I 
would like to see if we can do that, but I'm very respectful of 
my colleagues in the Department of Defense.
    Chairman Levin. Can they run in parallel? Could these 
efforts be done in parallel, the talks and the recovery efforts 
going on at the same time?
    Ambassador Hill. Again, I do not want to speak for my 
colleagues in the Defense Department, but from my vantage point 
that could be done.
    Chairman Levin. Are North Korea's ballistic missiles 
included in the Six-Party Talks?
    Ambassador Hill. No, sir, they are not. I share the concern 
of many people that we do need to get at their ballistic 
missile program. They have been exporting missiles and missile 
know-how to other countries and I think this is an issue that 
does need to be addressed. There are many problems in that 
country, as I alluded to in my statement, and what we have 
tried to focus on is what we feel is the most imminently 
dangerous problem, that is their nuclear program.
    But I would certainly believe that missiles need to be 
addressed at an early opportunity.
    Chairman Levin. As part of these talks?
    Ambassador Hill. Not directly as part of these talks, but 
certainly as we go forward I would say that the Six Parties 
need to address missiles. I would emphasize again, for the same 
reason that we mentioned, in the issue of nuclear talks, that 
missiles are not just a problem for the U.S. They are a problem 
to all the other parties, and that's why it is appropriate to 
raise those in the Six-Party context and why I also, as I 
suggest in my testimony, address human rights issues as well. 
This is not just a U.S. concern. This is part of the price of 
admission to the international community and they need to 
address that.
    Chairman Levin. We very much welcome that focus on human 
rights concerns. It's a very important part of any solution to 
the problems on the peninsula and it also represents something 
that America should always be in the lead in insisting upon.
    Senator Warner.
    Senator Warner. Thank you, Mr. Chairman. Mr. Chairman, I 
share your thoughts, as I'm sure other members of this panel 
do, about the issue of human rights.
    Since I will be joining you for the balance of this 
hearing, I'll withhold my questions at this time and ask the 
permission of the chair, which has been granted to me, to let 
my time be used by my distinguished colleague Senator 
Brownback, who is an acknowledged person with expertise in the 
area of human rights. We're proud of him in the Senate for his 
voice on that, not only with regard to the Korean Peninsula, 
but elsewhere in the world.
    Chairman Levin. We not only welcome Senator Brownback, but 
we have always welcomed his focus on human rights. It's a very 
important part of the U.S. Senate.
    Senator Brownback.

STATEMENT OF HON. SAM BROWNBACK, U.S. SENATOR FROM THE STATE OF 
                             KANSAS

    Senator Brownback. Thank you very much, Mr. Chairman, and I 
really appreciate this incredible privilege you're granting me 
to be here today and join this distinguished panel, and my 
colleague from Virginia for allowing me to step forward.
    We all share the same concern. Ambassador Hill and I have 
talked several times about human rights issues and I had some 
frustration about that.
    [The prepared statement of Senator Brownback follows:]

              Prepared Statement by Senator Sam Brownback

    Mr. Chairman, ranking member, colleagues who serve on this 
committee: I want to start by thanking you for giving me the 
opportunity to join you today for this extremely important hearing. I 
know that my colleagues who serve on this committee have focused on the 
nuclear disarmament issues, and although I have numerous concerns about 
the way this process has moved forward--whether by ignoring uranium, 
proliferation to Syria, or even the deficiencies in the plutonium 
declaration itself--my purpose here today is to determine what specific 
steps the State Department has taken--is taking--and will take in the 
future--to improve the disastrous human rights situation of the North 
Korean people. I do not wish to take any more time than necessary, so I 
will move straight to my questions.
    Ambassador Hill, I appreciate the opportunity to speak with you 
today. Thank you for you service.
    In the interest of time, almost all of these questions can be 
answered with a simple yes or no response. My goal here is not to play 
``gotcha.'' Most of the questions refer to U.S. law, international 
conventions, or previous agreements or public statements.
Refugees:
    1. Congress passed the North Korean Human Rights Act nearly 4 years 
ago. That Act requires U.S. consular facilities to facilitate the 
submission of applications for political asylum in the United States. 
Nearly 4 years later, the United States has admitted just 60 North 
Korean refugees, and according to credible reports from human rights 
workers, our consular facilities are turning away North Korean refugees 
as their gates.

          a. Ambassador Hill, has the State Department failed to 
        execute this law, or is there a problem in understanding 
        Congress's legislative intent, even though the bill passed 
        unanimously?
          b. Would you agree that turning away North Korean refugees is 
        contrary to at least the spirit of the law, if not the 
        statutory requirement?

    2. Have you heard the estimates that up to 300,000 North Korean 
refugees are living as fugitives in China, under the constant threat of 
being trafficked or repatriation to face torture or death?

          a. Can you understand why some Members of this Congress would 
        be dissatisfied at the admission of just 60 refugees?

    3. I understand that it is the State Department's position that it 
needs China's concurrence to let a North Korean into one of our 
consular facilities in China to apply for asylum.

          a. Does State believe that China is complying with its 
        obligations under the Refugee Convention it signed?
          b. When, if ever, will State clarify its instructions on 
        North Korean asylum seekers for our consulates to better comply 
        with the law?
Famine:
    1. Are you aware of the estimate by Andrew Natsios that 2.5 million 
North Koreans may have died in the famine of the 1990s?
    2. Have you read the research by Natsios, or by the experts Marcus 
Noland and Stephan Haggard suggesting that those deaths could have been 
prevented, but for the regime's misallocation of food and other 
resources?
    3. Are you aware of the call by Elie Wiesel and Vaclav Havel to ask 
the U.N. for Chapter VI sanctions against North Korea for failure to 
protect its population from famine?
    4. Have you seen the reports this year, including reports by the 
U.N. this very week, that North Korea has slipped back into famine?
    5. Are you aware that despite the reports of famine, North Korea 
has resumed construction on a 105-story, 4 million square foot hotel 
for tourists in the middle of Pyongyang--a hotel that sat unfinished 
for two decades until this year?
    6. In your discussion of the normalization of relations--or in any 
other context--have you raised any of these issues about North Korea's 
failure to protect its population?

          a. If so, when was this raised? What specific steps have been 
        taken to link this issue to normalization?
Gulags/Concentration Camps:
    1. Have you ever asked the North Korean regime about the 200,000 
men, women, and children believed to be in their concentration camps?
    2. Have you ever asked them about estimates that some of those 
camps have a 20 percent annual mortality rate, or the reports of 
widespread torture, starvation, and arbitrary executions there? If so. 
when, and how many times have you brought this up?
    3. Have you ever asked them about allegations that they test 
chemical and biological weapons on political prisoners in those camps?
    4. You were interviewed by the L.A. Times for a report that was 
published on March 4, 2008. The interviewer asked you about the 
relationship between the establishment of diplomatic relations and 
human rights. You said, ``Obviously we have continued differences with 
them, but we can do that in the context of two states that have 
diplomatic relations.'' Do you recall that response?
    5. Will you state on the record here today, and follow up in 
writing, that any prospect for normalization with North Korea is 
contingent upon the regime shutting down the political gulags and 
concentration camps?
Normalization/Diplomatic Relations:
    1. Have you ever told the North Koreans when you expect the U.S. to 
begin the process of establishing diplomatic relations with NK?
    2. Have the North Koreans ever told you when they will let the Red 
Cross visit any of those concentration camps?
    3. Have you ever asked--or have they ever told you--when North 
Koreans will be able to speak, think, or worship freely?
    4. Have the North Koreans told you when they will allow the World 
Food Program and USAID full and free access to their starving people?
    5. Have they given you any promises, benchmarks, or deadlines about 
casing the oppression of their people?
    6. Has the Special Envoy for Human Rights in North Korea ever been 
invited to take a place at the negotiating table in our normalization 
working group?

          a. Will you state for the record that the Special Envoy will 
        be invited to all future negotiating sessions with the North 
        Koreans as a way of carrying out the NIC Human Rights Act and a 
        way of firmly linking human rights?
Lifting of Sanctions/Trade:
    1. Do you agree that lifting sanctions will make North Korea 
eligible to export certain goods to the United States? (If no, do you 
foresee that NK will be able to export goods to the U.S. in the next 3-
5 years?)
    2. Are you aware of the prohibition in the Tariff Act, at 19 U.S.C. 
Sec. 1307, against landing any goods made with forced labor in U.S. 
ports?
    3. You're aware that North Korea is a Tier III country for human 
trafficking?
    4. Which means that North Korea does not fully comply with minimum 
standards for the elimination of human trafficking--which includes 
slave labor--and is not making significant efforts to do so.
    5. If the North Korean regime were to attempt to land merchandise 
in our ports, what plans are in place to verify that the goods were not 
made in one of those concentration camps?
    6. Have you made North Korea aware of the Tariff Act's 
prohibitions?
Abduction of U.S. Resident Reverend Kim Dong-shik:
    I'd like to ask you about the case of Rev. Kim Dong-shik. who was 
abducted in 2000 from northeastern China and taken to North Korea for 
interrogation and imprisonment, [hold up picture] As I hope you now 
recall, he had raised the ire of the North Korean government by helping 
its citizens flee torture and repression and by attempting to convert 
North Korean athletes who attended the 1996 Olympic Games in Atlanta. 
When you came to my office in November of last year, I personally 
handed you the letter from Mrs. Kim, Rev. Kim's wife. Back in January 
28, 2005, the entire Illinois delegation, including Senators Durbin and 
Obama wrote to the North Korean ambassador that ``We view Rev. Kim Dong 
Shik as also being a hero who assisted with the escape of the powerless 
and forgotten . . . we will NOT [capitalized in the letter] support the 
removal of your government from the State Department list of State 
Sponsors of Terrorism until such time, among other reasons, as a full 
accounting is provided to the Kim family regarding the fate of the Rev, 
Kim Dong-Shik following his abduction into North Korea 5 years ago.'' 
[hold up letter]

          1. Have you raised Rev. Kim's matter with the North Koreans 
        in any of the many meetings you have had with the North 
        Koreans?
          2. What do you say to his wife, a US legal permanent 
        resident, and to his children who are U.S. citizens, who in 
        testifying before this Congress last month begged for an 
        explanation as to how North Korea could be removed as a state 
        sponsor of terror without her either being told exactly what 
        had happened to her husband, let alone her receiving his 
        remains for her to bury so she could have some closure and so 
        he could rest in peace?
          3. How long does the State Department believe she should have 
        to wait?
Helsinki Process:
    Please state for the record if and when there will be a Human 
Rights Framework established with respect to North Korea, that is 
modeled on the Helsinki Process, which explicitly links human rights 
with security concerns.

    Senator Brownback. Ambassador Hill, I appreciate your 
specific statement--I've read it in the record; I'm sorry I had 
to step out briefly while you were in the middle of that--on 
human rights. I would like for you to drill down on the 
specifics on this, though, for me, and I just want to ask you 
when and in what setting will specific issues of human rights 
be negotiated between the United States and North Korea, either 
in the Six-Party Talks or in some side setting?
    Ambassador Hill. First of all, we have raised the issue 
many times with our interlocutors. The issue that you're 
addressing, though, is the crucial issue, how do we negotiate 
things and, frankly, what are we going to be negotiating. So 
what we want to do as we go forward into this next phase is we 
would like to set up our working group where we address the 
DPRK-U.S. relationship. In specific terms address human rights 
issues.
    Now, this would involve a human rights dialogue of the kind 
we've had with other countries. It doesn't mean that a human 
rights dialogue is going to solve this problem, but it is a 
start to set up a dialogue and to begin to address the issue of 
prisoners of conscience, people who have been summarily put 
into prison, to try to address that, and also begin to address 
the issues of how their judiciary functions.
    We are prepared to do that on a systematic basis as part of 
our overall effort at normalization, with the understanding 
that we do not normalize with North Korea absent a nuclear 
deal.
    Senator Brownback. In the next set of dialogues this will 
be a formal part of the negotiations?
    Ambassador Hill. The plan is to make this a formal part of 
our series of meetings with the North Koreans, in our so-called 
bilateral working group, human rights would be riveted into 
that bilateral working group.
    Senator, I want to again emphasize, human rights is not 
just for the United States. Other countries also have a human 
rights issue. I know that Japan will also raise this in their 
bilateral working group. Ideally, Senator, I would like to see 
it raised in a plenary. I can't get all of the parties to agree 
to that. But we will raise this systematically in our bilateral 
working group.
    Senator Brownback. Ambassador Hill, there's a Special Envoy 
for Human Rights in North Korea, which I don't believe has been 
invited to any of the negotiations to date between the United 
States and the Six-Party Talks.
    Ambassador Hill. Well, first of all, he would be most 
welcome if he wishes to attend.
    Senator Brownback. I want to, because my time will be 
narrow here: will you state that the Special Envoy will be 
invited to all future negotiating sessions with North Korea?
    Ambassador Hill. I would be happy to invite him to all 
future negotiating sessions with North Korea.
    Senator Brownback. Thank you.
    Mr. Ambassador, you noted this earlier, that there are 
political gulags and concentration camps in North Korea. Will 
you state that any prospect of normalization with North Korea 
is contingent upon the regime shutting down the political 
gulags and concentration camps?
    Ambassador Hill. I can say to you, Senator, that we will 
definitely raise these issues as an element of the 
normalization process. I'm not in a position at my level to 
state to you today what the specific conditions of 
normalization were, but they will be raised as part of that and 
clearly, we will be looking for more satisfactory answers on 
this.
    Senator Brownback. Mr. Ambassador, the Illinois delegation 
in total in a letter dated in 2005--noted the abduction of 
Reverend Kim Dong Shik, who's a U.S. citizen, and his wife is 
an Illinois resident, children U.S. citizens. I'm going to 
enter this letter in the record. It's from the Illinois 
delegation. They have said they would not support any 
normalization with North Korea until his abduction is dealt 
with.
    [The information referred to follows:]
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    Senator Brownback. Are you familiar with this particular 
case?
    Ambassador Hill. Yes, I am. I received a letter from his 
wife and I've answered it and offered to meet with them 
directly.
    Senator Brownback. Will you raise that with the North 
Koreans?
    Ambassador Hill. Yes, I'm happy to do so, as I have done 
for the Japanese.
    Senator Brownback. It seems like this case is very similar 
to the Japanese that were abducted. Now, he has been a human 
rights advocate and really an underground railroad hero helping 
people out of North Korea. I think in the history of the Korean 
Peninsula his name will go down famously. It's just my hope and 
prayer that he's still alive and that he's somebody that we can 
get out.
    Ambassador Hill. Senator Brownback, these are truly 
horrific stories and they are ones that I think require us to 
pursue them. I'm just pulling out of my wallet the list of the 
Japanese abductees that I carry. These are their pictures. I've 
raised these on individual terms with the North Koreans, and 
I'm most happy to raise his case specifically to see if we can 
find out what has happened to him.
    The number taken from Japan is something between 12 and 20. 
The government is looking at those cases. Nongovernmental 
Organizations (NGOs) feel it's more. If you look at some of the 
numbers in South Korea, it's a lot more. There are a lot of 
South Korean fishermen, for example, who were caught and never 
returned, and it was never explained what happened to them. 
These all need to be pursued.
    I think the best way to do this is to set up a process 
where we are talking about normalization. We will address these 
issues in the context of normalization, because I think the 
North Koreans need to understand. We need to establish a level 
of effort. We need to show the North Koreans this stuff is 
important to us. When they understand it's important to us and 
they understand that it's things they have to do in order to 
get what they want, I think it's a better way to proceed.
    Senator Brownback. Mr. Chairman, I want to thank you and my 
colleagues for this deferential treatment in allowing me to be 
here, and I want to thank you, Mr. Hill, for your direct 
answers to me.
    Chairman Levin. Thank you very much, Senator Brownback.
    Senator Warner. Thank you, Senator Brownback. I associate 
myself with the concern you have on these issues. Thank you 
very much.
    Chairman Levin. Thank you so much, Senator Brownback, for 
your focus on these issues. It's really critically important 
and I know you speak for so many of us when you speak about 
them.
    Senator Lieberman.
    Senator Lieberman. Thanks, Mr. Chairman.
    Ambassador Hill, Mr. Tobey, thanks so much for your 
service. An expression of parochial pride in Mr. Tobey since 
he's a resident of Connecticut, where I know he looks forward 
to returning, and we will welcome him.
    We talked earlier about the fact that in some ways we will 
know some years from now about how significant the breakthrough 
is that you've achieved with the North Koreans through the Six-
Party Talks. But essentially, they have an opportunity that 
they've been given to become part of the community of civilized 
nations.
    I want to ask you about one part of the agreement with the 
North Koreans and that is the removal of North Korea from the 
list, our list of state sponsors of terrorism. Frankly, I'm 
concerned that was premature. I understand that this was a 
first step. There had to be a quid pro quo. I think the removal 
of North Korea from the U.S. sanctions as part of the Trading 
With the Enemy Act was appropriate, the giving of more food was 
appropriate.
    But here's the basis of my concern. The North Korean 
Government, as part of this recent agreement on June 10, issued 
a statement that they do not support international terrorism 
now and will not support international terrorism in the future. 
But my question is whether there's any real basis for believing 
that statement is true by the North Koreans.
    I want to tell you what I'm concerned about, and I'm going 
to cite a few reports that are public. The Congressional 
Research Service, in a report earlier this year said: ``North 
Korea's relationship with the Islamic Revolutionary Guard Corps 
of Iran (IRGC) appears to be in two areas, coordination in 
support for Hezbollah and cooperation in ballistic missile 
development.''
    Still quoting: ``Reports also suggest that North Korea 
cooperates with the IRGC and other Iranian entities in the 
development of nuclear capabilities or nuclear weapons.''
    A detailed report in the Los Angeles Times--it goes back, I 
will say, about 5 years--nonetheless stated that ``Many North 
Koreans are working on nuclear missile projects in Iran. There 
is some evidence that the North Koreans have been supporting in 
one way or another the Tamil Tigers in Sri Lanka.''
    There was a recent study completed and issued by the U.S. 
Army Combined Arms Center at Fort Leavenworth on the 2006 
Lebanon War, that found evidence that North Korea had provided 
various forms of support to the Lebanese Hezbollah, including 
weapons and technical support.
    So my question is whether the North Koreans' statement that 
they're not involved in terrorism and won't be is actually 
true, and therefore whether they've really earned removal from 
the U.S. list of state sponsors of terrorism.
    Ambassador Hill. Senator, I think the Coordinator for 
Counterterrorism, Dell Daley, should address some of these 
issues. But I want to say to you that I am aware that all of 
these allegations have been carefully looked at and it was the 
judgment of this interagency process that North Korea qualifies 
from the statute to be removed from the list.
    All of these issues and these questions were very carefully 
looked at. You are quite correct that there have been these 
reports, but I know that they have taken each and every one of 
these reports.
    The last known incident of North Korean terrorism was the 
explosion of a South Korean airliner in 1987. Prior to that it 
was the bombing of the South Korean cabinet in Rangoon back in 
1983. My understanding from our counterterrorism people is that 
they do not have other examples since that time. Moreover, 
North Korea has since signed on to U.N. declarations, 
antiterrorism declarations.
    My understanding, again from the experts, is that they 
qualify on this matter. Now, with respect to the negotiation 
issue of why did we agree to do this as part of the 
negotiation, first of all, they wanted us to take away economic 
sanctions against them and this would have resulted in the 
inflow of things of monetary value to North Korea, and we 
refused that. So what we've done is we're in the process of 
negotiating an agreed on the removal from the list, state 
sponsors of terrorism, provided of course that we get the 
verification package that needs to be accompanied with their 
declaration. That's where we are right now.
    Senator Lieberman. You cited two instances which were both 
direct North Korean acts of terrorism, as opposed to 
sponsorship of other terrorist groups. I remain concerned about 
it. I'm going to ask this question again in the closed session 
we're going to have later this morning and perhaps would ask 
that Mr. Daley come before the committee or meet with me to 
pursue this, because it's easy enough to say it, but I want to 
feel that we really have a verifiable understanding and will 
monitor, because of the North Koreans' bad record here, that 
they really have stopped supporting some of the groups, such as 
the IRGC, that according to evidence presented by the U.S. Army 
are responsible for training and equipping Iraqi extremists, 
who in turn are responsible for murdering hundreds of American 
soldiers.
    I know that the law that creates the sponsor of terrorism 
list is a vague law. But what North Korea has done in support 
of terrorism is not vague, and I think we have a right to 
expect, before we essentially say they're clean, that they 
really are clean, not just that they're saying they're clean. I 
look forward to discussing this in the closed session.
    I do want to ask you one other question if the time allows. 
I appreciate that you took out the pictures of the Japanese 
abductees, and I'm concerned. I know, as you know very well, 
that Japan is very concerned that we gave the North Koreans too 
much too soon. ``Abductee'' is a word. I don't have to tell you 
the stories, but these stories are unbelievable.
    I mean, a Japanese school girl leaves her family in the 
morning, goes to school, and the North Koreans simply grab her 
off the street and take her to North Korea, and her family 
doesn't see her again. I mean, imagine if some foreign power 
did this to American kids and others.
    Japan is our most consistent, closest ally in the Asia 
Pacific region, and they've now pulled back, as I understand 
it, from the Six-Party Talks, only in the sense that they're 
not, I gather, being part of the economic and energy assistance 
to North Korea as part of this. I just want to invite you to 
talk a little bit about that, because I worry that in going 
forward with the agreement as we have with North Korea we're 
jeopardizing the real rock of our relations in Asia, which is 
Japan.
    Ambassador Hill. Well, first of all, Senator, I want to 
assure you that we cooperate very closely with the Japanese. We 
work with them extremely closely, and especially on this 
abduction issue. I have raised this issue. Virtually every time 
I see the North Koreans, I raise the Japanese abduction issue, 
and I've done it in very specific terms with them.
    Second, with respect to the issue of the de-listing on the 
terrorism list, before we did that we worked very closely with 
the Japanese on what would constitute, from their vantage 
point, progress so that we would make sure that as we move 
forward in the overall denuclearization process they are also 
moving forward. We reached, with the Japanese, an understanding 
of what progress would be, and I raised this with the North 
Koreans in very specific terms: what we would need them to do 
vis-a-vis Japan.
    This was part of the package. Senator, I completely agree 
with you, these are horrific, horrific human tragedies. It is 
frankly appalling what went on at this time. This was clearly 
an organized abduction program. It lasted several years from 
the late 1970s, early 1980s. There is no excuse for this sort 
of thing, I completely agree with you.
    What we are trying to do is make progress on that. But at 
the same time, we are really trying to get this plutonium 
program shut down, because we had a problem where they were 
producing plutonium. We did not want to just have a situation, 
as we did in the past, where we got them to shut it off, and 
that's what we did a year ago, we got them to shut it off. We 
wanted to make sure it's disabled so that even if they wanted 
to bring it back up, it would be very difficult.
    That's what we're trying to do. Of course these things 
involve painful choices, Senator. I have met with many of these 
abductee families. I have met with the same in South Korea. 
This is an area of the world that just has had tragedy of the 
type that I think for many Americans is hard to understand. So 
it is not an easy process.
    But what I can assure you--and I have said this on many 
occasions to the North Koreans directly--we are not going to 
see ourselves in a situation where we are going forward with 
you while causing problems with our very good ally Japan.
    Senator Lieberman. I appreciate that assurance. Thank you.
    Thanks, Mr. Chairman.
    Chairman Levin. Thank you, Senator Lieberman.
    Senator Reed.
    Senator Reed. Thank you very much, Mr. Chairman.
    First let me once again commend Ambassador Hill. Senator 
Lieberman takes parochial pride in Mr. Tobey. Let me assert the 
same prerogative for Ambassador Hill, who is a native of Rhode 
Island, who was educated in Rhode Island, and who was recently 
honored with an honorary degree from the University of Rhode 
Island.
    But Ambassador Hill, you've done a remarkable job and only 
history will tell whether the negotiations within the 
administration were as difficult as the negotiations with the 
North Koreans. But we'll let history, a few years from now, 
make that judgment.
    I think Senator Lieberman raised some very interesting 
questions along the lines of the terrorism list. But I would 
point out that while the Agreed Framework was in place the 
North Koreans were on the terrorism list, and unfortunately one 
of the prices of getting back to where we were several years 
ago is this new decision by the administration to remove them 
from that list.
    The other issue, which I think we'll go into in more 
detail, is that the premise for taking apart the Agreed 
Framework was the issue of highly enriched uranium, which still 
proves elusive in terms of determining what they were doing and 
what they might be doing right now. So that is sort of a 
prologue.
    But let me just ask a question and clarify what you said, I 
think, previously. If this process is successful, there will be 
a full accountability of their plutonium and removal of the 
plutonium, including those bits of plutonium which have been 
weaponized, is that correct?
    Ambassador Hill. That's absolutely correct.
    Senator Reed. I know this is very difficult, but do you 
have a sense of how long this might take in terms of the 
process going forward?
    Ambassador Hill. That is very difficult to assess. One of 
the reasons we're working on a step by step basis is the North 
Koreans, first of all, aren't very good at taking large leaps. 
They prefer small steps. So a lot of people felt they would not 
have shut down and disabled the Yongbyon facility. Yet they did 
it. But they only did it because we moved them along, first 
through just shutting it down.
    We are committed, however, to completing this job, and we 
would like to be able to rule out any ongoing uranium 
enrichment program. They claim they do not have an ongoing 
uranium enrichment program--if we are able to continue on this 
disabling of Yongbyon, and we believe we are continuing on this 
disabling of Yongbyon, they will have a certain amount of 
plutonium, which we can talk about in closed session. They have 
to assess whether that pile of plutonium, whether it's in 
weapons or just in someone's pockets, whether that's worth not 
having recognition from the United States, whether that's worth 
not having any access to international financial institutions, 
whether that's worth not having a peace treaty on the Korean 
Peninsula to try to replace the armistice, whether that's worth 
not having the eventual Northeast Asia peace and security 
mechanism.
    They have to gauge whether this pile of plutonium they have 
is, frankly, worth holding onto. My hope is that as they get 
down to just this pile of plutonium, with a completely disabled 
Yongbyon facility, they will understand what this is really 
costing them.
    Senator Reed. Thank you, Mr. Ambassador.
    Mr. Ambassador, the International Atomic Energy Agency is 
participating with you. Is it the hope that in the long term, 
North Korea will be a non-weapons state party to the 
nonproliferation regime and that the IAEA will be actively 
engaged with us?
    Ambassador Hill. It's not only our hope; it's expected. In 
the September 2005 statement they have committed to return to 
the Nonproliferation Treaty (NPT) with IAEA safeguards. So in 
order to do that, they have to cooperate with the IAEA. The 
North Koreans are very skeptical of the IAEA. We've made it 
very clear that they have to have a role in this process and we 
have an ongoing negotiation with them as we speak to try to 
address that.
    Senator Reed. Thank you very much. That, by the way, I 
think would be maybe even a new lease on life on the 
nonproliferation regime, if you could bring them back from the 
dark side.
    Mr. Tobey, the administration has failed to ask for any 
money to implement the Six-Party Talks in either fiscal year 
2008 or fiscal year 2009. We have included in the National 
Defense Authorization Bill $50 million for NNSA. Does the 
administration plan to include a request in any supplemental? 
Otherwise, this is all very good rhetoric, but without the 
resources you're not going to be able to do your job.
    Mr. Tobey. Yes, Senator. As I outlined, the costs going 
forward could be substantially more than what we've incurred to 
date. There has been a high degree of uncertainty as to exactly 
when we would incur those costs. As Ambassador Hill has 
outlined, we've had a series of joint statements which have 
been helpful in moving progress forward, but it has been 
somewhat slower than we had at one point hoped for.
    For example, there was, I believe, a commitment by the 
north to submit a declaration by the end of 2007, and of course 
it was much later that we actually got the declaration.
    It's very difficult to ask others within our Department to 
budget within the regular budget process substantial amounts of 
money that we are highly uncertain as to whether or not we 
could actually spend. In my discussions with other members of 
the administration and with the Office of Management and 
Budget, I have made the point--and as far as I can tell there 
has been general agreement--that extraordinary expenditures 
which can't be reliably predicted, but are clearly in the 
national interest, are just the sort of thing for which a 
supplemental request might be useful.
    I would anticipate that if in fact we do go forward and can 
move forward at a very rapid pace, allowing us to spend these 
large amounts of money, something like that would be 
anticipated.
    Senator Reed. Just in terms of timing, the issue of a 
supplemental here is very much up in the air. This I think is 
something that the administration has to lead on, and the 
timing is very uncertain.
    Let me ask, Ambassador Hill, just a concern that you might 
have, that there is some movement by the North Koreans, that we 
can't rapidly support because the funds are unavailable. Not 
only will we look a little silly, but that will give them an 
excuse to begin to walk away from something difficult that 
they've chosen to do.
    Ambassador Hill. I think we have to be prepared for a lot 
of eventualities, even the one where North Korea moves faster 
than we expect. That has not tended to be our problem, but I 
think you're absolutely right, we have to be prepared for that.
    I think we are tracking this very carefully, and I think we 
would be in a position to respond. So I think we do share your 
concerns about that.
    It was, for us, very important when they began the 
disabling action. Often this isn't talked about, but they're 
not even doing maintenance in that facility. That facility is 
falling apart and that's exactly what we want it to do. So we 
certainly want to be prepared as we move to the dismantlement 
and get critical components out of there.
    Senator Reed. Thank you very much, gentlemen.
    Thank you, Mr. Chairman.
    Chairman Levin. Thank you, Senator Reed.
    Senator Akaka.
    Senator Akaka. Thank you very much, Mr. Chairman.
    I want to add my welcome to you, Mr. Tobey and Ambassador 
Hill, to the Senate committee here. I'd like to talk about 
something a little different and that's about money and about 
costs. Mr. Tobey, you have projected the costs of Phase Three 
of the denuclearization process, to be an additional $34 
million for fiscal year 2008, and more than $360 million in 
fiscal year 2009. This is in addition to the $35 million 
already spent during Phase Two.
    While few doubt the importance of allocating resources to 
ensure a nuclear-free North Korea, it seems we are bearing a 
large share of the costs. So my question to you, Mr. Tobey, is 
what financial commitments have the other countries involved in 
the Six-Party Talks made thus far, and are they willing to 
contribute comparable amounts as compared to their respective 
gross domestic products over the coming 2 years?
    Mr. Tobey. Senator, I think you raise a very good point. I 
tried to be careful in my statement to talk about the costs 
that could be incurred, but not necessarily to talk about the 
funding sources for those costs. I would defer to Ambassador 
Hill in a moment to discuss what might have been talked about 
with other members of the Six-Party Talks. But I would note 
that, because of the actions of Congress, our nonproliferation 
programs are generally able to accept contributions from other 
countries; that we have received substantial contributions, 
which we have put to use elsewhere in the world to detect, 
secure, and dispose of dangerous nuclear material.
    I think it would be entirely possible and appropriate for 
other countries to bear some portion of these costs. But the 
actual negotiation of that process I think would be more in 
Ambassador Hill's domain than in mine.
    Senator Akaka. Ambassador Hill, would you comment further 
on that?
    Ambassador Hill. Well, again, as I said to Senator Reed, we 
have really tried to project out what this third phase might 
look like. Now, I must say as someone who's been negotiating 
the second phase, which went on far longer than we wanted, if 
we can get to that third phase and we can get agreement on some 
of the elements that we need. Those are problems I would love 
to have, because we have really had real troubles getting 
through this disablement and the third phase would envision 
dismantlement and abandonment of these weapons.
    But I don't want to speak for my colleagues, Acting Under 
Secretary John Rood or Acting Assistant Secretary Patty 
McNereny, but my understanding is that they have had a very 
careful look at how we're going to be able to manage this.
    Senator Akaka. Continuing on verification, Ambassador Hill, 
many of the critics of the Six-Party Talks have pointed to a 
North Korean regime that is untrustworthy. In response to these 
criticisms, you have been reported as saying: ``This has 
nothing to do with trust; this has everything to do with 
verification.''
    Do you still agree with this view and if so has North 
Korean transparency, concerning its nuclear program, developed 
to the point where verification of their declarations would 
indeed be possible?
    Ambassador Hill. You might make an agreement at the table 
that we'll do something and they'll do something, but the real 
issue is can we verify their declaration package on nuclear 
materials. So we cannot place any trust in that. We have to be 
able to verify.
    It's our belief that, assuming we get a protocol of 
international standard that involves what we need in terms of 
site visits, in terms of access to documents, in terms of 
access to their personnel, and to make sure that our people are 
allowed to do what they would do in any other protocol in any 
other part of the world--and that's what we're negotiating with 
the North Koreans, and those are pretty firm positions on our 
part--we should be able to take samples, for example, and we 
should be able to determine that the number they gave us in 
plutonium is correct.
    It's very important that we be able to do that, because we 
cannot come back to this committee, to Congress, and say that 
they've given us something that makes sense. We have to be able 
to verify it. Fortunately, thanks to a lot of modern 
technologies, we should be able to verify the statements that 
they've made to us.
    Senator Akaka. Ambassador Hill, during a recent talk at the 
Center for Strategic and International Studies you mentioned an 
idea of establishing a new regional framework for Northeast 
Asia that could expand upon the Six-Party process. In 
particular, you mentioned membership considerations for a more 
permanent mechanism, that the Six-Party Talks could be the 
precursor of, and that both China and Russia had discussed this 
idea with Secretary Rice as well.
    My question to you is, is this something that has been 
discussed with the remaining states involved in the Six-Party 
Talks and do you see this involving all the major states in the 
region?
    Ambassador Hill. Absolutely. We believe we've made some 
progress on the Six-Party process and framework, with the 
understanding that we need to make more progress. But we would 
like to keep that framework together and maybe have it exist at 
first as a forum to discuss regional security issues, and 
eventually to broaden it and to bring in some other countries 
that are also interested in being part of sort of a 
neighborhood in Northeast Asia.
    Now, in fact, in the Six-Party process we set up a working 
group to address this issue--we don't want a situation where 
anyone is concerned that somehow the creation of this very new 
concept, and at this point not very well defined concept, we 
don't want this in any way to be seen as replacing the 
bilateral alliances that we have in the region. That is the 
bedrock, that is the basis for us being there, are these 
bilateral relationships.
    We would see this as complementing them, but by no means 
replacing them. So we have talked to all of our partners in the 
Six-Party Talks. The enthusiasm for pursuing this Six-Party--
this peace and security mechanism, varies. Some partners have 
felt it's a little premature to be discussing the principles of 
it yet; we still have denuclearization to deal with. Others 
have felt it's time to get on with this. Asians often look at 
other parts of the world and they say: Wait, are we doing 
enough to foster a sense of community with multilateral 
structures.
    I think opinions are mixed, but I think it was unanimous at 
the last Six-Party meeting that we should begin a discussion of 
principles, with the understanding that, with respect to North 
Korea, we cannot conclude anything until we denuclearize North 
Korea.
    Senator Akaka. Thank you very much, Mr. Chairman.
    Chairman Levin. Thank you, Senator Akaka.
    Senator Sessions.
    Senator Sessions. Thank you.
    Ambassador Hill, I know this is a tough, tough job, and we 
thank you for your steadfastness in undertaking it. I think 
you're wise to talk about verification. Some have tried to 
point out that, I think, and today some are taking inconsistent 
positions about verification. Isn't it true that during 
President Clinton's attempt to work with and develop a more 
peaceful relationship with the North Koreans, which I didn't 
oppose, we discovered they were conducting activities seriously 
in conflict with what they were publicly saying?
    Ambassador Hill. That is correct, Senator. They appeared to 
be pursuing a uranium enrichment program, and this was 
something noted by our experts, and at the time when we had a 
so-called Agreed Framework which acted to freeze their 
plutonium production. So indeed this speaks to the issue of 
trust and speaks even more clearly to the issue of 
verification.
    Senator Sessions. Well, it was a big deal. So while we were 
trying to negotiate a plutonium issue they were setting about 
secretly in direct violation of what they were saying publicly 
and to us.
    Ambassador Hill. I think that's a fair statement.
    Senator Sessions. Well, as a result of that President Bush 
pulled back, and he was roundly criticized by the people who 
today are criticizing you, some of them at least, for not being 
able to verify everything that goes on. But he moved forward in 
2002 with Jiang Zemin and the Chinese and the Six-Party Talks, 
and frankly it looks like you're beginning to make some 
progress. I think we all ought to be cautious, but we all ought 
to be thankful that we have a President who's been firm in 
trying to make sure we're verifying what we are doing and not 
allow us to be too much manipulated by the North Koreans.
    It's just a tragic thing that they seem to be so obsessed 
with negotiation and gameplaying and manipulation when their 
people are in such horrible shape, that starvation is again 
arising as a specter. It's just an international tragedy. It's 
just unbelievable to me that this nation, with such great 
potential, is in this state.
    I think you were wise to acknowledge Senator Warner. 55 
years ago he served as a marine as part of the Korean War. I 
was honored to be invited by former Secretary William Cohen to 
the Defense Department to have a dinner with Senior Minister 
Lee from Singapore, and he told the story that some of us may 
have thought we did not succeed in Vietnam, but he ticked off 
Singapore and Taiwan and Hong Kong and the Philippines and 
Malaysia and South Korea as free, independent, progressive 
states, and that that was part of the result of what we've 
done.
    Just a few years ago, I just have to note, Senator Warner, 
the South Koreans invested $1 billion in my home State of 
Alabama to build an automobile plant that has 4,000 direct 
employees and more indirect employees that that, paying our 
citizens high wages to produce a high quality, energy efficient 
automobile. So this is a remarkable thing that history has 
taught us, that sometimes it takes years for our actions to pay 
off.
    Sometimes do you think we think in too short terms, 
Ambassador Hill?
    Ambassador Hill. Oh, now and again, but I waited 86 years 
for my baseball team to win. [Laughter.]
    Senator Sessions. Let me just briefly ask you to tell us 
what you could tell us in open session about the North Koreans 
and their actions involving the Syrian nuclear reactor that was 
attacked by Israel recently. What can you say to give any 
assurances that this kind of activity won't happen again?
    Ambassador Hill. Obviously, this is an issue of very great 
concern, given the amount of evidence to support our conviction 
that we had a serious problem of proliferation of technology. 
So in addressing this with the North Koreans, they have 
acknowledged our information and very much our concerns on 
this. They have declared to us that they do not now have any 
programs involving nuclear proliferation. They have also said 
they will not in the future.
    These are declarations. So what we have done is, first of 
all, these declarations are contained in a Six-Party 
instrument, meaning that they have made them to us, but they've 
also made them to all of their neighbors, as of October 2007. 
To the best of our information, this declaration is accurate. 
As of October 2007, it is accurate. It would not have been 
accurate to describe the past.
    What we did, and as recently as 2 weeks ago, in China when 
the heads of delegations met in the Six-Party process, we 
agreed to establish a monitoring mechanism at the level of head 
of delegation, a monitoring mechanism whereby we will continue 
to monitor and we put in specific terms the commitment to 
nonproliferation.
    What does that mean by monitoring? It will essentially be 
an information-sharing ability, and any time we see examples of 
this we will bring it to the Six Parties as an example of 
noncompliance with commitments made.
    At this point, I don't want to get into the hypothetical of 
``what if we find something,'' but I can tell you we will 
definitely raise it, and it will obviously be a very serious 
matter, not just for us but for all the other countries that 
were part of that agreement.
    Senator Sessions. I would hope that we would take decisive 
action if they do anything like that again.
    Could you tell us, based on the time you've been there and 
been a part of this effort, is there any realistic prospect 
that North Korea could see what's happened to their brothers to 
the south and the progress that other nations are making and 
that this leadership could somehow alter its course that's been 
so devastating to the people of Korea and so dangerous for the 
world and actually begin to participate with the decent nations 
of the world?
    Ambassador Hill. Senator, I think this is really the 
fundamental question. I think North Korea needs to understand 
that their security and their well-being will depend on their 
willingness to open up. By that I mean not just economically, 
which is important, but also they need to open up to allow 
their people the freedoms that other people have. I think human 
rights really do need to be seen as part of this overall issue, 
where as long as they deny human rights and as long as they 
deny really the rights that I think other people all over the 
world expect, this is going to be a serious drag on their 
ability to create a more successful economy.
    I think from the point of view of their leadership, they're 
trying to walk a very narrow path. They're very concerned about 
opening up in the ways that we think they have to do, because 
they feel that somehow to do that would be to destabilize the 
place. At the same time, they can't stay closed because in this 
information world we live in, they simply cannot survive as a 
completely closed society. They're afraid of their survival as 
an open society and they understand they can't survive as a 
closed society. So they're walking a very narrow path.
    I think it's in our interest to try to point this out to 
them and explain to them that, with the understanding that if 
they denuclearize, we're prepared to help them on this path, 
we're prepared to help widen this path for them, and they 
shouldn't fear change, they shouldn't fear that we will somehow 
look to destabilize them. We will be prepared to work with 
them, but we cannot work with them as long as they continue to 
have nuclear weapons. It is simply unacceptable in so many 
different ways and we have to get at that problem.
    Senator Sessions. Thank you.
    Chairman Levin. Thank you, Senator Sessions.
    Senator Martinez.
    Senator Martinez. Thank you, Mr. Chairman.
    Gentlemen, thank you both for the work you've been doing, 
that's so important to the United States and to the world.
    Ambassador Hill, I want to focus on the relationship 
between North and South Korea and the framework of the Six-
Party Talks. First of all, I recall at the beginning of the 
Six-Party Talks that many criticized the lack of direct 
engagement between the United States and North Korea. I believe 
that the wisdom of the Six-Party Talks has been proven by the 
participation of China in such a vital way, as well as the 
engagement of neighbors that needed to be at the table, like 
Japan and South Korea particularly.
    But I wonder if you would comment on the North-South 
relationship in the framework of the Six-Party Talks?
    Ambassador Hill. If you think of the Six-Party Talks as not 
only a forum, but essentially a platform on which you can have 
a number of different configurations--you can have bilateral 
talks within the Six-Party process and we've been doing a lot 
of that with North Korea, especially as we're addressing issues 
like the terrorism list, which is very much a bilateral issue--
we have found that countries that have had great difficulty 
talking to each other directly are able to do so within the 
Six-Party process. For example, North Korea and Japan were not 
talking for a long time, but did so within the Six-Party 
process. So it's clearly been a mechanism that has helped 
soften some of the very difficult bilateral problems.
    Now, with respect to North and South Korea, of course they 
had a parallel structure known as a North-South Process, and 
this process has not gone well lately. If you ask the North 
Koreans, they criticize the South Korean government for, in the 
North Korean view, taking a harder line with them. But I think 
if you talk to the South Koreans, our allies in this, what they 
have really tried to do is to ensure that as they do things for 
North Korea in this North-South Process, they expect some 
things to be done by the North Koreans. They want this to be a 
two-way street.
    They have raised some issues that haven't been raised 
before and the North Koreans have not taken this well. So the 
South Koreans have had, I think, to some extent a difficulty in 
this North-South Process.
    But I think from the point of view of South Korea, they 
would like to reduce tensions on their peninsula. They would 
like to see a North-South Process continue. If you looked at 
the speech their President Lee Myung-Bak gave a couple of weeks 
ago, it really was a clear statement that they want this 
process of dialogue to continue.
    I think they have continued to be able to talk to the North 
Koreans in the Six-Parties even as this North-South Process has 
become more difficult. From our vantage point, it's very 
important that North and South continue to talk and continue to 
address the instabilities on the peninsula. In particular, 
there was a very ugly incident just a couple of weeks ago, 
where you had a South Korean tourist in North Korea who, 
according to the North Korean authorities, strayed from the 
tourist enclave that was up in this Kumgang Mountain and, as a 
result of allegedly straying from this tourist enclave, she was 
shot several times by automatic rifle fire. Clearly this is 
something that any government has to be extremely concerned 
about, and the South Korean Government has been extremely 
concerned about this.
    Senator Martinez. That sounds like a very dramatic sort of 
incident, the kind of thing that occurs in totalitarian, closed 
societies like North Korea and others around the world.
    One of the things I noted is that we're now providing food 
aid to North Korea as part of this process. You mentioned in 
your testimony about a strong framework to ensure the food will 
reach those most in need. What is that framework, what are we 
doing, and is the food reaching those in need?
    Ambassador Hill. Well, first of all, it is not part of the 
Six-Party process. It is based on our response to the World 
Food Program's assessment that there is a very serious food 
problem in North Korea today. It's caused by harvest failures, 
which in turn were caused by flooding and other factors.
    The U.S. agreed to provide 500,000 tons of food aid in the 
framework of the World Food Program and also provided by 
several American NGOs. We, the United States Government, put 
together a protocol that they agreed to with the North Koreans, 
which goes into great detail about certain aspects of how this 
is going to be administered.
    I think the key factor here, and it was very much of an 
unprecedented factor, is the degree of monitoring of this 
assistance. That is, we have an unprecedented number of 
monitors who will ensure that the food gets to those in need. 
Indeed, the first shipment was actually held up briefly because 
of some disagreements on how it would be handled. We continue 
to incur some of those problems. But we have made very, very 
clear to the North Koreans that we cannot move without the 
proper monitoring and, thanks to this protocol, which was 
assiduously negotiated between our food experts and North 
Korea, we can point to provisions throughout the document that 
I think will allow us to go forward with this.
    We really want to see this food aid delivered. There are 
people starving. There are children who don't have enough food 
in that country. If you look at the average height and weight 
of North Korean children, it is a great tragedy. We want to be 
part of the process of helping that.
    Senator Martinez. What is the population of North Korea?
    Ambassador Hill. The overall population of North Korea is 
estimated at about 22 million people. One of the issues in the 
food aid was to try to get to certain provinces where it was 
the judgment of our experts that the harvest conditions had 
been worse.
    Senator Martinez. I know the human rights situation was 
covered earlier. I was unfortunately not here, so I'm not going 
to ask you to repeat. But perhaps just as a treetop kind of a 
thing, do you believe that there is any progress on the human 
rights front as it relates to North Korea?
    Ambassador Hill. As I said in my statement, I think North 
Korea's human rights record is abysmal and it needs to be 
addressed. It needs to be addressed in some fundamental ways. 
We have raised these issues with the North Koreans and we have 
made clear that as we move toward some sort of--assuming 
they're moving on denuclearization--I must be very clear with 
you; denuclearization is of fundamental importance to us. As we 
move forward, we would look to normalize our relationship with 
North Korea, with the understanding that we do not normalize 
unless they denuclearize.
    As part of that normalization effort, we will have an 
ongoing human rights process to address human rights concerns. 
I must be very frank with you; the North Koreans don't like to 
hear the term ``human rights.'' But that should not mean that 
we shouldn't raise it.
    I think from North Korea's point of view, they need to 
understand this is not just an American issue; this is an 
international issue. Every country has challenges in human 
rights and I think the North Koreans need to understand that, 
while their challenges are more than other countries, they need 
to begin to address them. They cannot expect to be a member in 
good standing in the international community sporting the human 
rights record that they have today.
    Senator Martinez. My time has expired, but just very 
briefly, do you get any assistance from the other five members 
of the Six-Party Talks on this issue?
    Ambassador Hill. I do, actually. I think it's important to 
have the North Koreans hearing this from someone besides me. I 
have certainly talked to other participants. Some help is 
greater than others.
    Senator Martinez. Understood.
    Ambassador Hill. But I think everyone understands it's 
important to us and, frankly speaking, it's important to North 
Korea to just understand that, like it or not, this is part of 
the price of admission to the international community.
    Senator Martinez. Thank you, Mr. Hill.
    Chairman Levin. Thank you, Senator Martinez.
    Senator Warner.
    Senator Warner. First I would express my appreciation to 
the remarks of my colleague who just talked about the 
historical importance of the American participation during the 
Korean Conflict period, when we lost 37,000 killed and tens and 
tens of thousands more than that wounded.
    But it also raised in my memory the acknowledgment that we 
owe to President Harry Truman, who had the foresight as 
Commander in Chief of those forces that went in and made the 
tough decision to see that freedom could well have been lost, 
not only in the Korean Peninsula, but in many, as Senator 
Sessions said, other smaller nations in that area. He was a 
Democrat President and I was proud to, in a very modest way, be 
just a youngster under his leadership as Commander in Chief. 
But a Democrat President, and now a Republican President is 
building on that foundation. I just think this is one of the 
better hearings that we've had in some time, and I commend both 
of you again for your service.
    Why don't you take a little rest here for a minute, 
Ambassador Hill. I want to talk a little with Mr. Tobey.
    I'm particularly interested in the participation of the 
IAEA in the Six-Party process.
    Mr. Tobey. Well, Senator, as I outlined, there are IAEA 
personnel at Yongbyon right now, and our people work closely 
with them.
    Senator Warner. That we know. But are they likely to stay 
there for a period?
    Mr. Tobey. That's my understanding, yes.
    Senator Warner. What sort of attitude does North Korea have 
towards the IAEA?
    Mr. Tobey. My impression is that North Korea is not 
favorably disposed toward the IAEA, although, as I've just 
noted, they have allowed IAEA personnel present, to be present. 
I think Ambassador Hill may wish to comment on this as well, 
but at least for a time the North Koreans would often attempt 
to turn this issue into a bilateral issue between the United 
States and North Korea, and in particular that applied to 
verification issues.
    We in turn have equally tried to make sure that they 
understood that this was really a multilateral issue and that 
it necessarily would involve the IAEA as well, particularly 
with respect to their return to the NPT, which they agreed to 
in the September 19, 2005, joint statement.
    Senator Warner. Did you wish to add anything to his 
observations?
    Ambassador Hill. No, I think that is correct. I think the 
North Koreans have tried to bilateralize as much as possible. 
We're prepared to do some things bilaterally, especially as we 
have the strong Six-Party platform to do it. I think from the 
point of view of the verification, we definitely want the IAEA 
there and we want them to have a role, because ultimately the 
objective here is to get them back in, back into the NPT. So 
it's very appropriate that they be there.
    But I also want to say that as we've gone forward with this 
disablement of the facilities, I feel very good that every day 
we have Americans working on behalf of our Government and our 
Six Parties. As we sit here today, we have four Americans who 
probably about now are tucking themselves into their guest 
house in Yongbyon. So the fact that we have had the presence of 
some four Americans, often colleagues of Will's from the 
Department of Energy--they're courageous people, frankly. 
They've been out there supervising this disablement and I'm 
very pleased they're there.
    As we go forward, I would like to see that the U.S. 
continues to play this very important role, because as we worry 
about verification I worry a lot less when I see Americans out 
there.
    Senator Warner. I might note, it's pretty cold up there 
this time of year.
    Ambassador Hill. It will be.
    Senator Warner. It can get very cold over there.
    Would you, Mr. Tobey, talk about the significance of 
Congress taking action this spring in the context of the 
budget, that is appropriations, waiving the Glenn Amendment so 
that you have broader authority now?
    Mr. Tobey. That was very significant, Senator Warner, and 
we are quite appreciative of that action.
    Senator Warner. Detail what that will enable you to do over 
and above?
    Mr. Tobey. Up until now, the activities have been funded 
through the State Department and those funds are relatively 
limited in their amounts. They've amounted to $15 or $20 
million. The costs for packaging and removing the spent fuel 
and plutonium and uranium would be substantially higher and 
those were the costs that I spoke of earlier.
    Because that amount of money would be spent by the NNSA, it 
would make sense that in fact we not rely on those relatively 
limited State Department funds. So allowing the Glenn Amendment 
to be waived was an important step as we move forward.
    Senator Warner. Ambassador Hill, going back to the 1953 
armistice, people should recognize we never concluded that 
conflict in a formal manner other than the armistice agreement. 
That arrangement hopefully will be replaced by another 
framework. Do you have any more information you can provide the 
committee on that?
    Ambassador Hill. That's exactly what we would like to do, 
replace the armistice with a peace process. At this point I 
want to reserve on the issue of whether we call it a treaty.
    Senator Warner. Sure, I would, too.
    Ambassador Hill. But we need a more durable peace process. 
Of course, one of the key elements today is that ROK needs to 
be, the Republic of Korea, needs to be in the forefront of that 
peace process. They were not, of course, during the armistice 
days in 1953, so that will be a change from how the armistice 
was handled.
    We have worked very closely with the South Koreans on how 
that would work. I would say that if you look at the Six-Party 
documentation on it, we use the term ``directly related 
parties.'' It's a term of art, but it basically refers to four 
countries: U.S., China, and North and South Korea. But we want 
to make sure that Japan and Russia are also well informed. They 
have interests there. But the actual peace process would be 
conducted by these four countries.
    Senator Warner. Wouldn't the U.N. have a role, given the 
historical context?
    Ambassador Hill. I think we've had a number of lawyers look 
at this issue and I think our sense is that they would not play 
a direct role, but at some point there would be a U.N. 
imprimatur on it because of their direct role in 1953.
    Senator Warner. I think that would be wise. I think it 
would be very wise.
    Mr. Chairman, that concludes my questions until we go into 
the executive session. I thank you again, gentlemen.
    Chairman Levin. Thank you both. When you talk, Ambassador 
Hill, about how good it is when you see Americans there at 
Yongbyon, you throw me back to my memory, because in 1997 or 
1998 I went to Yongbyon. They let me in and I walked in, and 
there was an American from Texas who was I guess supervising 
the canning of those rods at that time under the Agreed 
Framework. That was a terrific sight. I actually saw those cans 
in those pools.
    Then when we pulled out of the Agreed Framework because of 
the suspicions about their uranium program, and we pulled out I 
guess in 2002 or 2003, whenever we pulled out, it was a real 
step backward, I'm afraid. But that's part of the history. 
You're working hard now to get us back on track. You have the 
Yongbyon facility apparently, if not out of commission, just 
about out of commission, and that is a good sight.
    We again thank you both for all the work you've put in on 
this. We will now adjourn to S-407, where we will begin in 10 
minutes.
    [Questions for the record with answers supplied follow:]

               Questions Submitted by Senator John Thune

                        NORTH KOREAN DECLARATION

    1. Senator Thune. Ambassador Hill, Ambassador John Bolton wrote in 
a June 30, 2008 op-ed for the Wall Street Journal that the 
administration has accepted a North Korean declaration that is 
``narrowly limited, incomplete, and almost certainly dishonest in 
material respects.'' How would you describe the North Korean 
declaration?
    Ambassador Hill. North Korea submitted a declaration to the 
Chinese, as the chair of the Six-Party process, on June 26. In 
conjunction with the declaration submission, China issued a statement, 
which read, ``The Parties agreed that the declaration will be subject 
to verification, and there is agreement within the Parties on a set of 
principles to guide the establishment of a verification regime.''
    This declaration package includes information about North Korea's 
plutonium program, which has produced fissile material for its nuclear 
weapons. As part of this package, the North Koreans acknowledged U.S. 
concerns about uranium enrichment and proliferation activities. By 
submitting this declaration, North Korea has begun to fulfill its 
declaration commitment, but much more remains to be done.
    After intensive talks on verification measures October 1-3, United 
States and North Korean negotiators agreed on a series of verification 
measures to be used for evaluating North Korea's declaration. We 
understand that these measures will serve as the basis for a 
Verification Protocol to be finalized and adopted by the Six Parties in 
the near future and would allow Six-Party experts to assess the DPRK's 
June 2008 nuclear declaration. The package agreed on by the United 
States and North Korea provide that: experts from all Six Parties, 
including experts from non-nuclear states, may participate in 
verification activities; the IAEA will have an important consultative 
and support role in verification; experts will have access to all 
declared facilities, and based on mutual consent, to undeclared sites; 
experts will be allowed to review documents, interview personnel 
involved with the nuclear program, and use scientific procedures, 
including sampling and forensic activities; and all measures contained 
in the verification protocol will apply to the plutonium-based program 
and any uranium enrichment and nuclear proliferation activities.

    2. Senator Thune. Ambassador Hill, is Ambassador Bolton's 
description of the North Korean declaration as ``incomplete'' and 
``almost certainly dishonest in material respects'' accurate?
    Ambassador Hill. North Korea's provision of a declaration was an 
important step toward fulfilling its declaration commitment. 
Verification of the declaration has already begun with review of the 
copies of over 18,000 pages of operating records from Yongbyon that 
North Korea provided on May 8. Review of these operating records, which 
date back to 1986, has already yielded useful data and will contribute 
to the verification of North Korea's declaration. As we proceed with 
verification, discrepancies that may arise in the declaration will have 
to be satisfactorily explained and additional information provided as 
necessary, in order for the declaration ultimately to be deemed 
complete and correct.
    At October 1-3 verification discussions in Pyongyang, the DPRK 
agreed to a series of verification measures. The President has 
determined that this agreement by the DPRK represents significant 
cooperation concerning the verification of North Korea's 
denuclearization actions.

    [Whereupon, at 11:27 a.m., the committee adjourned.]

                                 <all>

</pre></body></html>
